<html>
<title> - AIR QUALITY IMPACTS OF WILDFIRES: PERSPECTIVES OF KEY STAKEHOLDERS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   AIR QUALITY IMPACTS OF WILDFIRES: PERSPECTIVES OF KEY STAKEHOLDERS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 4, 2017

                               __________

                           Serial No. 115-61
                           
                           
                           
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                       


      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                        
                        
                                __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-516 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c3a4b3ac83a0b6b0b7aba6afb3eda0acaeed">[email&#160;protected]</a>                    
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, CaliforniaL RUIZ, 
MARKWAYNE MULLIN, Oklahoma               California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

<RAU>
                      Subcommittee on Environment

                         JOHN SHIMKUS, Illinois
                                 Chairman
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    RAUL RUIZ, California
TIM MURPHY, Pennsylvania             SCOTT H. PETERS, California
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
GREGG HARPER, Mississippi            DIANA DeGETTE, Colorado
PETE OLSON, Texas                    JERRY McNERNEY, California
BILL JOHNSON, Ohio                   TONY CARDENAS, California
BILL FLORES, Texas                   DEBBIE DINGELL, Michigan
RICHARD HUDSON, North Carolina       DORIS O. MATSUI, California
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
EARL L. ``BUDDY'' CARTER, Georgia
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     3
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7

                               Witnesses

John Bailey, Professor, Oregon State University, College of 
  Forestry.......................................................    10
    Prepared statement...........................................    12
    Answers to submitted questions...............................   170
Jim Karels, State Forester, State of Florida.....................    19
    Prepared statement...........................................    21
    Answers to submitted questions...............................   173
Knox Marshall, Vice President of Resources, Murphy Company.......    31
    Prepared statement...........................................    33
    Answers to submitted questions...............................   178
Christopher Topik, Director, Restoring Americas Forest, The 
  Nature Conservancy.............................................    40
    Prepared statement...........................................    42
    Answers to submitted questions...............................   182

                           Submitted Material

Statement of the Western Governors' Association..................    81
National Climate Assessment 2014, chapter 7 on forests...........    96
EPA report entitled, ``Climate Change Indicators in the United 
  States: Wildfires''............................................   116
Climate Central report entitled, ``Western Wildfires: A Fiery 
  Future'' \1\
Climate Central article entitled, ``Wildfire Season is Scorching 
  the West''.....................................................   125
Climate Central article entitled, ``With Warming, Wesern Fires 
  May Sickent More People''......................................   130
Climate Central article entitled, ``Climate Change Behind Surge 
  in Western Wildfires''.........................................   134
Article entitled, ``In the West, communities pioneer cooperative 
  approach to fighting wildfires,'' Christian Science Monitor, 
  September 21, 2017.............................................   140
Article entitled, ``Climate Change Expected to Fuel Larger Forest 
  Fires--If It Hasn't Already,''San Diego Tribune, July 4, 2017..   151
Article entitled, ``Heat Waves and Wildfire Signal Warning about 
  Climate Change (and Budget Cuts),'' Union of Concerned 
  Scientists, June 19, 2017......................................   155
Article entitled, ``A Warmer World is Sparking More and Bigger 
  Wildfires,'' Yale Environment 360, October 2, 2017.............   161

----------
\1\ The information can be found at: http://docs.house.gov/
  meetings/if/if18/20171004/106463/hhrg-115-if18-20171004-
  sd007.pdf.

 
   AIR QUALITY IMPACTS OF WILDFIRES: PERSPECTIVES OF KEY STAKEHOLDERS

                              ----------                              


                       WEDNESDAY, OCTOBER 4, 2017

                  House of Representatives,
                       Subcommittee on Environment,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
room 2123, Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Present: Representatives Shimkus, McKinley, Harper, Olson, 
Johnson, Flores, Hudson, Walberg, Carter, Walden (ex officio), 
Tonko, Ruiz, Peters, Green, DeGette, Cardenas, Dingell, Matsui, 
and Pallone (ex officio).
    Also Present: Representatives Schrader and McMorris 
Rodgers.
    Staff Present: Ray Baum, Staff Director; Mike Bloomquist, 
Deputy Staff Director; Allie Bury, Legislative Clerk, Energy/
Environment; Kelly Collins, Staff Assistant; Zachary Dareshori, 
Staff Assistant; Wyatt Ellertson, Research Associate, Energy/
Environment; Tom Hassenboehler, Chief Counsel, Energy/
Environment; Jordan Haverly, Policy Coordinator, Environment; 
A.T. Johnston, Senior Policy Advisor, Energy; Ben Lieberman, 
Senior Counsel, Energy; Mary Martin, Deputy Chief Counsel, 
Energy/Environment; Drew McDowell, Executive Assistant; Katie 
McKeogh, Press Assistant; Annelise Rickert, Counsel, Energy; 
Dan Schneider, Press Secretary; Peter Spencer, Professional 
Staff Member, Energy; Jason Stanek, Senior Counsel, Energy; 
Hamlin Wade, Special Advisor, External Affairs; Jeff Carroll, 
Minority Staff Director; Jean Fruci, Minority Policy Advisor, 
Energy/Environment; Caitlin Haberman, Minority Professional 
Staff Member; Rick Kessler, Minority Senior Advisor and Staff 
Director, Energy/Environment; Alexander Ratner, Minority Policy 
Analyst; Andrew Souvall, Minority Director of Communications, 
Outreach, and Member Services; and C.J. Young, Minority Press 
Secretary.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. The Subcommittee on Environment will now come 
to order.
    The chair recognizes himself for 5 minutes for an opening 
statement.
    First of all, actually, even before I start, we are also 
going to be joined by two of my colleagues from other 
subcommittees: Congressman Schrader from Oregon; I think Cathy 
McMorris Rodgers from Washington State is also going to come.
    By the rules of the committee, they are not allowed opening 
statements. They can ask questions once all the members of the 
subcommittee have. They are both from the great Northwest, 
along with the chairman of the full committee. So we look 
forward to their participation, and we welcome them to the 
subcommittee.
    This subcommittee has jurisdiction over the Clean Air Act, 
and, for that reason, we frequently hold hearings about EPA 
regulations and policies designed to address air pollution. 
Today, we will address a source of air pollution so bad that it 
accounts for some of the Nation's worst air quality episodes, 
and that is the wildfires occurring across the U.S., especially 
out West.
    While most of the focus during and after these fires is on 
the ecological and economic harm and the loss of life, the 
public health impacts from these wildfire air emissions also 
deserve congressional attention.
    The statistics are staggering. So far this year, there have 
been almost 49,000 wildfires in the United States, destroying 
nearly 8.5 million acres. And the emissions from these fires 
can have serious impacts on air quality over a range that can 
stretch for many miles. As a result, millions of Americans can 
be exposed to pollutants found in wildfire smoke, sometimes for 
extended periods of time.
    Nearly every other significant source of combustion, from 
vehicles to power plants to factories, are subject to very 
stringent controls, but the emissions from wildfires are 
completely uncontrolled. Worst of all, the sharp increase in 
particulate matter emissions from wildfire smoke can contribute 
to eye and respiratory irritation, impaired lung function, 
bronchitis, and exacerbation of asthma, especially in 
vulnerable populations.
    In looking for solutions to these wildfires and the 
resulting air quality impacts, it is important to note how much 
greater wildfire risks are on Federal lands as compared to 
state or private lands. Often the largest and most polluting 
fires originate or involve Federal lands. Many point to active 
management of state and private forests as a reason behind 
their relatively lower risk of catastrophic wildfires. There 
are a number of preventative measures that have a proven track 
record for reducing both the extent and severity of wildfires. 
Where these measures are used, we see a much lower risk.
    I look forward to learning more about active management 
from our distinguished panel of forestry experts.
    One successful forest management strategy is prescribed 
burns, in which small, deliberate fires are set that 
significantly reduce the risk of far more damaging wildfires 
later on. Unfortunately, at least in some places, government 
restrictions impeded the use of prescribed burns, due in part 
to concerns about their air emissions from them. But these 
restrictions may be counterproductive if prescribed burns help 
avoid much greater air emissions from wildfires.
    These are the kinds of policies we need to review. Congress 
should be looking at any and all ways to address wildfires and 
their emissions and, most important of all, the policy measures 
that can help prevent or minimize wildfires in the first place.
    With that, I am ending my opening statement, and, seeing no 
other colleague asking for the remaining time, I yield back 
mine.
    And I now turn to the ranking member of the subcommittee, 
Mr. Tonko, for 5 minutes.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    This subcommittee has jurisdiction over the Clean Air Act, 
and for that reason we frequently hold hearings about EPA 
regulations and policies designed to address air pollution. 
Today, we will discuss a source of air pollution so bad that it 
accounts for some of the nation's worst air quality episodes, 
and that is the wildfires occurring across the U.S. and 
especially out west. And while most of the focus during and 
after these fires is on the ecological and economic harm and 
the loss of life, the public health impacts from these wildfire 
air emissions also deserve Congressional attention.
    The statistics are staggering. So far this year there have 
been almost 49,000 wildfires in the United States destroying 
nearly 8.5 million acres. And the emissions from these fires 
can have serious impacts on air quality over a range that can 
stretch for many miles. As a result, millions of Americans can 
be exposed to the pollutants found in wildfire smoke, sometimes 
for extended periods of time.
    Nearly every other significant source of combustion--from 
vehicles to power plants to factories--are subject to very 
stringent controls. But the emissions from wildfires are 
completely uncontrolled. Worst of all are the sharp increases 
in particulate matter emissions from wildfire smoke, which can 
contribute to eye and respiratory irritation, impaired lung 
function, bronchitis, and exacerbation of asthma, especially in 
vulnerable populations.
    In looking for solutions to these wildfires and the 
resulting air quality impacts, it is important to note how much 
greater wildfire risks are on federal lands as compared to 
state and private lands. Often, the largest and most polluting 
fires originate on or involve federal lands. Many point to 
active management of state and private forests as a big reason 
behind their relatively lower risk of catastrophic wildfires. 
There are a number of preventive measures that have a proven 
track record for reducing both the extent and severity of 
wildfires, and where these measures are used, we see a much 
lower risk. I look forward to learning more about active 
management from our distinguished panel of forestry experts.
    One successful forest management strategy is prescribed 
burns, in which small deliberate fires are set that 
significantly reduce the risk of far more damaging wildfires 
later on. Unfortunately, at least in some places, government 
restrictions impeded the use of prescribed burns, due in part 
to concerns about the air emissions from them. But these 
restrictions may be counterproductive if prescribed burns help 
avoid much greater air emissions from wildfires. These are the 
kinds of policies we need to review.
    Congress should be looking at any and all ways to address 
wildfires and their air emissions, and most important of all, 
the policy measures that can help prevent or minimize wildfires 
in the first place. Thank you.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair. Thank you for calling this 
important hearing.
    Thank you to our witnesses for being here this morning. 
Gentlemen, thank you for making the effort. I appreciate the 
opportunity to hear more about wildfires and the serious air 
quality issues they are causing.
    This year, there have been over 49,000 fires in the United 
States, which have burned approximately 8.5 million acres. 2017 
has been the most expensive year for firefighting yet. The 
United States Forest Service has spent more than $2 billion. In 
addition to these tremendous costs, public health is also at 
risk. Smoke, which includes particulate matter and carbon 
monoxide, is choking people in communities around the country, 
particularly out West.
    As these forests burn, a significant amount of greenhouse 
gas pollution is also released. Undeniably, all of these issues 
have become increasingly worse in recent years, so this is an 
important hearing.
    Many of my Democratic colleagues and I often speak about 
the dangers associated with poor air quality. And it is clear 
that wildfires pose significant health, ecological, and fiscal 
challenges.
    Today, we will hear much about the consequences of these 
fires to both human health as well as forest health. We will 
also hear about the changing philosophies on forest management.
    I know work is being done to promote forest management 
techniques, such as prescribed burns and other tools, to 
improve forest health and reduce the harm of smoke. To that 
end, EPA updated its Exceptional Events Rule to allow the 
pollution from prescribed fires to be considered exceptional as 
long as certain smoke management practices are followed.
    But we would be remiss if we only discussed the 
consequences of wildfires while ignoring the driving cause of 
these increasingly numerous and severe disasters, that being 
climate change. The 2014 National Climate Assessment identified 
the relationship between climate and fire. Very plainly, it 
found that, ``forests in the United States will be increasingly 
affected by large and intense fires that occur more 
frequently.''
    Atmospheric and oceanic warming, higher temperatures 
causing drier fuels and forests, changes to snow pack, and 
years of drought are already coalescing to increase the length 
and depth of fire season. This issue is not going away, and, in 
fact, climate change will continue to exacerbate the problem, 
so we cannot ignore the causes. I am sure that improved forest 
management can help mitigate some of the dangers and costs, but 
these bigger climate issues must be considered.
    Our forests are capable of capturing and storing 
significant amounts of carbon, which can continue to reduce 
carbon pollution and help meet emissions reduction goals. 
Because forests provide opportunities to reduce future climate 
change by storing carbon, inevitably they must be part of our 
climate solution. But having more and more acres burn without 
addressing the underlying causes will only make our air quality 
and greenhouse gas pollution issues that much worse.
    So I ask that we keep the causes in mind as we think about 
how to help ensure our fellow Americans are able to have the 
air quality they expect and deserve in order to live a healthy 
life.
    With that, I again thank you, Mr. Chair, and yield back.
    Mr. Shimkus. The gentleman yields back.
    The chair now recognizes the chairman of the full 
committee, Mr. Walden from the State of Oregon, who is living 
this as we speak. And the chairman is recognized for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I thank the chairman, and I commend him and Mr. 
Tonko for your statements on this matter. And it is time that 
we looked at air quality as part of the overall mix.
    Oregonians have been living with this problem in the rural 
West for years--smoke-clogged skies from catastrophic fires. 
Just this summer in my home State of Oregon, we watched as 
fires burned more than 678,000 acres. That is equivalent to 
two-thirds the size of Rhode Island. And over $340 million has 
been spent so far to fight those fires--state, local, Federal 
costs.
    And you can see the impacts. I have a photo up here. Sue 
from Rogue River sent me this. This is what it looked like in 
her pasture during one of these fires. It is really dense 
smoke. You may think that is fog. That is smoke from a fire 
that burned more than 190,000 acres.
    And what you have to understand is that didn't burn off in 
the morning. That was there probably for a month. This is what 
we are facing throughout the Northwest, throughout the West 
every summer. In these basins, the smoke settles in like that, 
and there it sits.
    Across Oregon, schools were forced to close because the air 
quality was so bad they didn't want the children in the 
schools. Some high schools had to travel hours away for 
football games. The Mighty Oregon Ducks had to go over to the 
Oregon coast to practice because the air quality in Eugene was 
so bad. Annual community events, from the Sisters Folk Festival 
to the 30th anniversary of Cycle, Oregon, to Shakespeare plays 
in Ashland--all cancelled. Nine plays, $400,000 lost to the 
Shakespeare theater, just in nine plays.
    That is just the direct cost. I can't tell you how many 
people I talked to who had health issues develop that never had 
them before, people that had to go see physicians or go to the 
hospital because the air quality was so bad.
    We know that wildfires pour significant amounts of 
pollution into our air. And, according to the EPA, forest 
wildfires emitted an annual average of 105.5 millions tons of 
carbon dioxide into the United States between 2000 and 2005. 
And, in fact, in 2005 alone, wildfires resulted in more than 
126 million tons of carbon dioxide emissions in the United 
States.
    And in a fire that I remember, the 2002 Biscuit Fire in 
southwest Oregon, the carbon dioxide emitted during that fire 
amounted to almost one-quarter of the total of carbon dioxide 
emitted in Oregon for the entire year. So, to Mr. Tonko's 
point, this is a contributing factor to additional carbon and 
other pollutants in the atmosphere.
    It doesn't have to be this way. Fuel loads continue to 
build up in our forests because of broken Federal forest 
policies that have led to a lack of management. As you can see 
in the next chart that we are going to put up, between 2011 and 
2015, Federal forests in Oregon grew by 1.3 billion cubic feet. 
Of that, 9 percent was harvested; 29 percent, that represents 
how much timber died; and the remaining 62 percent, or 822 
million cubic feet, remains as fuel for fire. The point is our 
forests are not static but our management is.
    Reducing that fuel load reduces the severity of a fire and 
the emissions. In fact, a 2014 study by the Sierra Nevada 
Conservancy, the Nature Conservancy, and the Forest Service 
showed that fuel treatment projects can reduce size and 
intensity of fire between 30 and 76 percent. Treatment also 
reduces carbon emissions from these fires by up to 85 percent.
    Now, we are always going to have fire, but we can reduce 
the risk and intensity through proper management. And when we 
do get fire, we must get in and clean up and replant. To our 
colleague's point, healthy, green forests sequester carbon. 
Old, dead, dying forests emit it. And forest fires do the worst 
in that respect. The forests are really our lungs, and we 
should restore forests that are destroyed by fire. In fact, a 
study by the Forest Service's Pacific Northwest Research 
Station found that younger growing stands of trees absorb more 
carbon than far older stands.
    We also need to consider how we choose to fight fire and 
the impacts of letting fire burn within wilderness areas simply 
because of that management designation. I have had a lot of 
complaints from people I represent and people throughout Oregon 
who are concerned that part of the Forest Service policy is 
``let her burn.'' And that is because it is in a wildness area, 
and they are not supposed to use intensive forest fire 
practices.
    I understand that, but my concern is, does that take into 
account what happens to people who have to suffer from the 
smoke from those fires? The communities in my district, like 
Grants Pass and Medford, that saw days on end of ``very 
unhealthy,'' or worse air quality during the Chetco Bar Fire. 
That fire was spotted at a quarter of an acre on July 12 in 
wilderness. It has now burned 191,000 acres.
    These decisions on how, when, and how aggressively to fight 
fire matter. They matter to our forests, to our habitat, to our 
watersheds, and to the air quality in our communities. So let's 
have less of this ash and less of the ruin and better air 
quality.
    Mr. Chairman, I yield back. Thank you.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Today, we're taking a long overdue look at an air quality 
issue that has affected Oregonians and those living across the 
rural West for years--smoked clogged skies from catastrophic 
wildfires. Just this summer in my home state of Oregon, we 
watched as fires burned more than 678,000 acres--equivalent to 
two-thirds the size of Rhode Island--and over $340 million has 
been spent--so far--to fight them.
    And you can see the impacts. Sue, from Rogue River, sent me 
these pictures of what looks like fog on her pasture. In 
reality it's dense smoke from a fire that burned over 190,000 
acres.
    Across Oregon schools were forced to close because of smoke 
and poor air quality. Some high schools traveled hours away for 
football games, and my Oregon Ducks had to practice on the 
Oregon coast to get away from the smoke.
    Annual community events, from the Sister's folk festival, 
to performances of the Britt Festival in Jacksonville and the 
famous Oregon Shakespeare Festival in Ashland were canceled. 
Communities have watched timber jobs disappear as more and more 
of our federal land has become locked up. Those same 
communities are now watching tourism dollars slip away as 
visitors stay away from the smoke.
    In meetings across my district earlier this month, I heard 
similar stories in different communities of people that were 
finding themselves visiting a doctor, only to learn their 
respiratory challenges were a result of the smoke.
    We know that wildfires pour significant amounts of 
pollution into our air. According to EPA, forest wildfires 
emitted an annual average of 105.5 million tons of carbon 
dioxide in the United States between 2000 and 2005. In 2005 
alone, wildfires resulted in more than 126 million tons of 
carbon dioxide in the United States. And in a fire that I 
remember--the 2002 Biscuit Fire in southwest Oregon--the carbon 
dioxide emitted during that fire amounted to almost one-quarter 
of the total carbon dioxide emitted in Oregon that year.
    It doesn't have to be this way. Fuel loads continue to 
build up in our forests because of broken federal forest 
policies that have led to a lack of management. As you can see 
in this chart, between 2011 and 2015 federal forests in Oregon 
grew by 1.3 billion cubic feet. Of that, only 9% was harvested, 
29% dies, and the remaining 62%--or 822 million cubic feet 
remains as fuel for fires.
    Reducing that fuel load reduces the severity of a fire and 
the emissions. A 2014 study by the Sierra Nevada Conservancy, 
The Nature Conservancy and the Forest Service, showed that fuel 
treatment projects can reduce the size and intensity of fire 
between 30 and 76 percent. Treatment also helps reduce carbon 
emissions from these fires by up to 85 percent.
    Now, we're always going to have fires but we can reduce the 
risk and intensity through proper management. And when we do 
get fire, we must get in and clean up and replant. Just like 
private forest managers do. These forests are our lungs after 
all, and we should restore forests that are destroyed by fire. 
In fact, a study by the Forest Service's Pacific Northwest 
Research Station found that younger, growing stands of trees 
absorb more carbon than far older stands.
    We also need to consider how we choose to fight fire, and 
the impacts of letting fires burn within wilderness--simply 
because of its management designation--on air quality.
    For communities in my district like Grants Pass and Medford 
that saw days on end of ``Very Unhealthy'' or worse air quality 
during the Chetco Bar fire, which was spotted at \1/4\ of an 
acre on July 12th in wilderness, and has now burned over 
191,000 acres, these decisions matter greatly.
    There are plenty of questions to explore today and I look 
forward to exploring them a bit more depth over the course of 
this hearing.

    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes the ranking member of the full 
committee, Mr. Pallone from New Jersey, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    This year has been a terrible year for natural disasters. 
Record numbers of wildfires and catastrophic hurricanes have 
claimed lives and property across the country and in the U.S. 
territories, and the human and financial costs of these events 
are extremely high and still rising. Recovery takes years, and 
some places never fully recover.
    Climate change, in my opinion, is having the effects that 
were anticipated by the scientific community, and yet the Trump 
administration and the congressional Republican leadership 
continue to stick their heads in the sand. And they do so at 
all of our peril.
    It is long past time for us to deal with the realities and 
risks we face due to the change in climate. We need to do a 
much better job of protecting communities by making them more 
resistant and resilient to natural disasters, and we need to 
slow the pace of climate change. And we need to adapt to the 
changes that we are facing.
    All of this is critical, and it simply cannot be done until 
the Republican leadership actually acknowledges that it is 
indeed a problem. One would hope that the hurricanes and fires 
of the recent months have served as a wake-up call for some of 
my Republican colleagues, and we will see.
    Now, turning to wildfires, I expect all of our witnesses 
today will point out that fire is and always has been part of 
the lifecycle of forests. In fact, many ecosystems are well-
adapted to fire. Some systems require periodic burning to 
remain healthy to regenerate. In fact, some of the problems we 
are experiencing today are the unfortunate result of having 
suppressed fires in these systems for too long.
    But severe drought, high seasonal temperatures, expansion 
of native pest species, and the introduction of invasive 
species also play a role. Climate change coupled with the 
buildup of brush, small trees, and other forest fuels has 
resulted in more frequent fires that burn hotter over more 
extensive areas.
    The Forest Service recently announced that the firefighting 
costs for this season have exceeded $2 billion, and we haven't 
yet reached the end of the fire season. The costs for 
firefighting have been climbing, and if we do not change our 
management of these systems and invest more in preventative 
management, we can expect the costs to continue to grow.
    But proper management does not mean simply increasing 
timber harvests. Logging does not prevent wildfires or minimize 
the impact when fires start. We need comprehensive ecosystem 
management that includes prescribed fires, selective 
harvesting, and reforestation. And we need greater public 
education, involvement, and participation, especially by 
communities living near and around forests to help them reduce 
their fire risk.
    This hearing will highlight the air quality problems 
associated with wildfires. Smoke from those fires contains 
particulate matter, carbon monoxide, and other harmful gasses. 
It is a serious health hazard, particularly for those who 
suffer from asthma and other respiratory diseases, and it is a 
significant threat for the firefighters who respond and spend 
weeks fighting to control and put out the blaze.
    The intense smoke also adversely affects visibility across 
large areas--we saw a picture that our chairman put up--and 
that impacts transportation, recreation, and tourism. Longer, 
more intense fire seasons expose many people in these areas to 
months of poor air quality.
    Forests are a great resource. They provide tremendous 
economic and ecological benefits. They protect water quality, 
provide raw materials, and they support numerous recreation and 
economic activities. They are home to a diverse array of plants 
and animals. And these systems are among the most effective at 
absorbing and storing the excessive carbon we continue to pump 
into the atmosphere.
    So, managed properly, they will continue to provide a full 
array of benefits, though we must acknowledge and respond to 
the threat that climate change presents to these systems and 
the communities that live near them.
    I would like to yield the remaining minute to Mr. Schrader, 
my colleague from Oregon.
    Mr. Schrader. Well, thank you very much, Mr. Chairman.
    I think I have a slide I would like to put up on the screen 
too.
    Wildfire treatment and forest management must work hand-in-
glove together. The Eagle Creek Fire, burning close to 
Portland, basically devastated our iconic Columbia River Gorge, 
denuding popular and previously spectacular hiking trails that 
now will not be available for years to come.
    But there is a more dangerous and insidious problem in our 
Federal forests that has gone almost completely unnoticed. That 
is the carbon emissions from dead and diseased trees in our 
forests. According to the Oregon Global Warming Commission, 
Oregon's forests are responsible for 75 percent of all long-
term emissions produced statewide by all other sectors. And the 
bulk of that is from tree mortality, not just wildfires.
    More chilling yet, although Federal forests occupy 50 
percent of Oregon's forests, they account for 70 percent of 
yearly emissions due to tree mortality, while private forests 
only occupy 33 percent of state forestland and emit 16 percent 
due to tree death.
    Active forest management is essential to preventing harmful 
ozone-depleting emissions. And, fortunately, there is 
legislation being developed to put healthy forest stewardship 
back into our neglected national forest treasures.
    I look forward to the panel today. Thank you. And I yield 
back.
    Mr. Shimkus. The gentleman's time has expired.
    We now conclude with members' opening statements. The chair 
will----
    Mr. Walden. Mr. Chairman, a point of order, just for a 
second.
    That photo, by the way, is about 10 miles from where I 
live, that he had up there, in the gorge. That is the scenic 
Columbia River Gorge, national scenic area.
    That fire burned 14 miles in one night, headed toward 
Portland when the winds were blowing. Then it shifted and came 
toward where I live. So they had to shut down barge traffic on 
the Columbia River--first time, I think, in history. That is 
the mighty Columbia River. And the railroads and the freeway 
were all shut down.
    So thank you for the indulgence.
    Mr. Shimkus. Without objection. Obviously, it is a 
catastrophe, and we appreciate the adding to the photos with 
the real-life observations and the concerns, and part of the 
reason why we are here today.
    We have now concluded with members' opening statements. The 
chair would like to remind members that, pursuant to committee 
rules, all members' opening statements will be made part of the 
record.
    We want to thank our witnesses for being here today and 
taking the time to testify before the subcommittee.
    Today's witnesses have the opportunity to give opening 
statements, followed by a round of questions from our members.
    Your full statements have been submitted for the record. We 
usually go about 5 minutes. As you see, this is not a highly 
contentious, controversial, mean-spirited hearing, so if you go 
over, that is going to be cool. But just don't go too long over 
the 5 minutes, because yes, then it will become contentious by 
members.
    I will introduce you one at a time as you give your opening 
statements.
    And, with that, I would like to first start with Mr. John 
Bailey, Professor at Oregon State University, College of 
Forestry.
    Again, your full statement has been submitted for the 
record. You have 5 minutes. Welcome.

STATEMENTS OF JOHN BAILEY, PROFESSOR, OREGON STATE UNIVERSITY, 
   COLLEGE OF FORESTRY; JIM KARELS, STATE FORESTER, STATE OF 
  FLORIDA; KNOX MARSHALL, VICE PRESIDENT OF RESOURCES, MURPHY 
 COMPANY; AND CHRISTOPHER TOPIK, DIRECTOR, RESTORING AMERICAS 
                 FOREST, THE NATURE CONSERVANCY

                    STATEMENT OF JOHN BAILEY

    Mr. Bailey. Thanks for the opportunity to address this 
subcommittee and generally talk about these important topics.
    And beyond my background and the research in teaching, in 
fire, my basic philosophy is research, curiosity, education, 
social engagement, and commonsense solutions. And I think this 
is an example where we can really make progress on that.
    I am going to make six points today.
    The first, and it has come up, that the wildfire and 
associated smoke is just inevitable. And it was mentioned that 
these systems have evolved with fire, and it is just part of 
the Western world. And so we have to be careful about 
complaining about the numbers of acres and numbers of fires, 
because it is inevitable and these systems burn. And really 
what the issue is about the uncharacteristic behavior and the 
fuel accumulations and those kinds of things that we have out 
there right now.
    I am sorry that my predecessors created that illusion, that 
fire was somehow un-normal and destructive and catastrophic. 
Some of that was our own fault, with Smokey Bear. Some of it we 
can blame on Walt Disney and Bambi. But whatever the reason is, 
we have to update our thinking on what is the role of fire out 
there.
    And, fortunately, we have a lot of available science and 
technology and research to continue looking at these issues and 
help us regain, you know, some ability to view and manage fire 
as a natural part of the system. And that will have impacts on 
our human communities and air quality.
    And one of the changes I definitely want to make in the 
light of climate change is, rather than repeating that our 
policy is suppression, we need to just get that word, 
``attempt'' suppression, in there all the time, because these 
wildfires are inevitable.
    Number two has already been mentioned. 2017 has been an 
impressive year. It will set some records, but all the numbers 
are not in yet. And it is the collision of climate and the 
accumulated fuels that have been referenced. We have an 
unprecedented amount of fuels on many, many of our acres out 
there. And what is a bigger concern for these large fires and 
landscape-level fire is that those acres are better connected 
than they have ever been, and fire flows across the landscape 
much like water.
    So these are unprecedented conditions. Our ancestors would 
not have feared these climate conditions unless they would have 
had these kinds of fuel conditions. And so we have to view them 
together and treat them together.
    Number three, holding to our current course and hoping that 
this is going to get better on its own would be a terrible 
mistake to make. And remember that part of the definition of 
``insanity'' is to keep doing the same thing and expect a 
different outcome. In fact, there is a pathological side to 
this, where doing things like 100-percent suppression or 100-
percent attempting suppress actually makes the problem worse in 
the long run. And so we don't need to keep doing things that we 
know are making it worse.
    Number four, this is a complex issue. It has already been 
mentioned that we can't just log our way out of this. This 
needs to be a comprehensive view. Our forests are scenery. As 
we saw, they are wild areas, they are recreational 
opportunities, they are watersheds that protect our water 
supply and fish. These hillsides are wildlife habitat. Yes, 
they are timber, they are fiber, they are carbon, they are 
ecosystems, and there are things that we haven't even thought 
about yet.
    But they are also fuel. And when I look at them, I see 
fuel. And we need to think about them as fuel, and they are 
going to burn. Sustainable forest management, as we have talked 
about, ecosystem management, will yield, plenty of fiber and 
wood to meet the needs of society and the planet, and that is 
fine. In fact, in the near term, we have a backlog that we can 
remove from our hillsides.
    Number five, a lot of the biomass is actually fine fuel. 
And that is going to be the role of prescribed burning, because 
that is about the only way to get rid of that fuel accumulation 
that is out there on the landscape. And that is a wonderful 
tool that we have. And using fire to limit future fire is an 
age-old proposition and approach. And it is much like 
vaccination; we can vaccinate our landscapes by using good, 
sound management, including prescribed fire.
    And, finally, number six, we are straddled with a legacy of 
accumulated outdated thinking as much as accumulated fuels for 
this. And like our views on fire, also logging, and our old 
thoughts about timber battles and all--we have to get beyond 
the idea that preservation works in any meaningful way. These 
are dynamic systems, like I mentioned, that are going to burn. 
So we can't just set them aside and let them do their own 
things.
    The good news is there are abundant win-win-win situations 
that we can move forward with. And the forestry profession and 
Oregon State University forestry will contribute to that as 
best we can.
    [The prepared statement of Mr. Bailey follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes Jim Karels, State Forester from 
the State of Florida.
    Welcome, sir.

                    STATEMENT OF JIM KARELS

    Mr. Karels. Thank you, Chairman Shimkus, Ranking Member 
Tonko, Full Committee Chair Walden, and members of the 
subcommittee. Thank you for the opportunity to testify before 
you today on this important issue of air quality and wildfires.
    My name is Jim Karels. I am the state forester and director 
of the Florida Forest Service. And I am here today testifying 
on behalf of the National Association of State Foresters, of 
which I have been a past president, and I am the current 
Wildland Fire Committee chair. I have spent 36 years in the 
fire and forestry business across the country, and I am honored 
to share some of those experiences with you today.
    NASF represents the directors of the state forestry 
agencies across the country. We deliver technical and financial 
assistance, along with wildfire and resource protection, on 
two-thirds of the 766 million acres of forest in this country.
    We do that with support from the United States Forest 
Service, state and private forestry programs, and state and 
volunteer fire assistance grants, which provide equipment and 
training to the firefighters who respond to state and private 
land fires, where over 80 percent of the Nation's wildfires 
start.
    As was mentioned, a very challenging year--49,000 fires, 
8.5 million acres, with still more activity and potential in 
California for the fall and parts of the Southeast.
    Florida was not immune to wildfire activity this year. 
Southwest Florida, in a span of 4 months this spring, evacuated 
5,000 homes and inundated cities like Naples and Fort Myers and 
surrounding communities with smoke and air quality issues. And, 
at the same time, on the Georgia-Florida line, the 150,000-acre 
West Mims Fire impacted rural communities, natural resources, 
and air quality issues for cities as large as Jacksonville.
    Fire is a natural part--well, let's back up, because I left 
out the West. The western states all summer long grabbed the 
headlines of the issue of smoke, hundreds of fires blanketing 
communities across the western U.S., with smoke endangering 
citizens and wildland firefighters and impacting, like I said, 
communities large and small.
    Fire is a natural part of our ecosystem. There are 
beneficial fires. These fires thin our forests, they reduce the 
fuels, they improve the wildlife habitat, and they improve our 
forest health. However, we are seeing more and more of the 
catastrophic fires, like this summer, that are very costly and 
that produce a tremendous amount of air pollution.
    While burning, forest produces numerous hazardous chemicals 
in its smoke plume. The pollutant of most concern is that 
particulate matter that was spoken of, microscopic particles, 
2.5 microns in size, that penetrate deep into the lungs and 
cause breathing issues and negative issues on our health.
    We know the effects of exposure of these particulate matter 
are felt most in our sensitive populations: our children, our 
elderly, and those that have existing conditions.
    We know the effects of prolonged exposure is also a 
significant issue. Our bodies can eliminate this particulate 
matter during a 1- or 2-hour or even a 1- or 2-day process, but 
those prolonged events, weeks and months on end, as the 
Congressman said in Oregon and stuff, that has significant 
impact on your health, whether you are a citizen, whether you 
are a firefighter. And I can speak firsthand on experience of 
wildland fire safety and smoke later on, if wanted.
    Wildfire smoke also has impacts on our communities in many 
ways beyond the simple human health. Tourism revenue suffers. 
Children suffer from the canceled outdoor events and the 
inability to recreate outside. Motorists face significant 
driving issues. Wildfire smoke is a major issue across our 
country.
    So what do we do to address the issue of these mass amounts 
of wildfire smoke during the fire season? The state foresters 
believe wholly in prescribed fire during the right times of 
year and targeted hazardous fuel reduction projects.
    With respect to prescribed fires, I mentioned it is part of 
our forest ecosystem. However, it is better that fire happens 
under that controlled system of a fire manager where we know 
the winds, we know the temperature, we have predetermined 
boundaries, and we are able to notify the public ahead of time, 
rather than this uncontrolled, catastrophic large fire. And 
those prescribed fires, many times, help to reduce the number 
of catastrophic fires in the future.
    In Florida and across the country, we also engage in forest 
thinnings and targeted hazardous fuel removal for fire-
resilient landscapes. We do that with our private landowners, 
we do that on our state forests, and we work with our U.S. 
Forest Service partners through the Good Neighbor Authority in 
Congress to reduce those fuels.
    Once again, thank you for the opportunity to testify before 
you today, and I look forward to your questions.
    [The prepared statement of Mr. Karels follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you, sir. Thank you for your testimony.
    Now we turn to Knox Marshall, Vice President of Resources, 
Murphy Company.
    You are recognized for 5 minutes, sir.

                   STATEMENT OF KNOX MARSHALL

    Mr. Marshall. Thank you.
    Chairman Walden, Chairman Shimkus, and Ranking Member 
Tonko, thank you for the opportunity to testify here today on 
this very important issue.
    As Congressman Walden and Congressman Schrader have pointed 
out, they have witnessed this firsthand. We appreciate their 
leadership on this important issue.
    My name is Knox Marshall. I am Vice President of Murphy 
Company, located in Eugene, Oregon. We are a wood products 
manufacturer, and we rely on the forest for the wood products 
we need to support our business. We are deeply committed to the 
750 people we employ and the communities where our operations 
are located.
    These wildfires are having disastrous effects on our public 
forests, human health, and public safety. While many natural 
disasters are beyond our control, in the case of forest fires, 
we can use active forest management to reduce the size and the 
severity of these disasters and their impacts on direct air 
quality while, also, we can produce renewable, climate-friendly 
wood products used by Americans every day. A true win-win.
    If the goal of our public policy is to have less toxic air, 
less carbon pollution, healthy watersheds, resilient forests, 
and sustainable wood products that create family-wage jobs in 
rural communities, we have to manage our forests now.
    Chairman Walden noted some of the serious impacts to air 
quality and public health. My written testimony includes 
examples of what happened this year in Oregon and Washington 
when we were blanketed by smoke and ashes for the entire 
summer--the worst I can remember in my career, going back 25-
plus years. Nationally, we set new records for the number of 
acres burned and the cost of fighting these wildfires. Not 
records anyone in this room probably wants to set.
    Unfortunately, these trends will continue unless changes 
are made to our Federal forest management and our Federal 
forest fire suppression practices. There is an urgent need to 
address the root cause of worsening catastrophic wildfires. It 
is forest health. While we can't prevent all fires, science 
does tell us that we can reduce the size and severity of 
wildfires through active forest management, including timber 
harvesting, mechanical thinning, and prescribed fire.
    Nearly a century of fire suppression and the more recent 
lack of active forest management of our Federal lands have 
resulted in overstocked forests that are the root cause of the 
mass mega-fires and the insect mortality we are seeing in 
Western forests. Where we once had 50 to 100 trees per acre, we 
now have 500 to 1,000-plus trees per acre. To that effect, it 
is no surprise that 60 million acres of Federal forestlands are 
at high risk to catastrophic wildfire.
    Each year, Federal agencies are only able to mechanically 
treat about 200,000 acres, and we continue to fall further and 
further behind on this trajectory. It is also true that warming 
temperatures are exacerbating the forest health crisis, which 
is precisely why Federal agencies must act quickly to correct 
these overstocked forest conditions.
    We need to take a smart, proactive approach to fighting 
wildfires, like the approach taken by many private and state 
forest managers. These mega-fires lead to massive emissions of 
CO<INF>2</INF>. The reality is that responsible forest 
management and fire suppression will limit the emissions of 
CO<INF>2</INF> and sequester carbon in the wood products 
produced, used every day in construction of our homes.
    I want to emphasize the need for Congress to give our 
Federal land management agencies new legal tools to reduce the 
time and cost required to plan forest management projects, 
particularly under the National Environmental Policy Act. It 
will also require smart legal reforms to discourage serial 
litigants who sue to delay and stop these projects.
    I also personally have serious concerns, along with other 
forest managers in the West, about the growing risk to our own 
private forestlands. Lack of active management on neighboring 
Federal lands, in what we believe is a growing failure of the 
foresters to aggressively attack forest fires when they are 
small and highly capable of being extinguished, poses a severe 
risk to the assets that sustain our business that we have 
purchased. A lot of times, the fire lines have become the 
private property lines on these massive fires, because where 
the management has taken place becomes a natural firebreak.
    The agency's current approach to fighting fires is 
imperiling much of the West and harming the air quality in a 
significant manner. The choice to let the fire burn needs to be 
thoroughly reviewed and utilized only in exceptional 
circumstances where the risk of fire growth is absolutely 
minimal and these ecological benefits are absolutely certain.
    Absent any reform, state and private landowners need 
sufficient authority to perform initial attack suppression 
activities on Federal lands and/or the ability to hold Federal 
agencies liable for damages to the private lands from the fires 
that originate on Federal lands, similar to the liability we 
face as landowners if we have fires burn onto Federal lands.
    Thank you, and I welcome the opportunity to answer any 
questions.
    [The prepared statement of Mr. Marshall follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much. Thank you for yielding 
back.
    The final member on the panel is Mr. Christopher Topik, 
Director, Restoring America's Forest, with The Nature 
Conservancy.
    Thank you, sir. And you are welcome for 5 minutes.

                 STATEMENT OF CHRISTOPHER TOPIK

    Mr. Topik. Thank you very much, Mr. Chairman.
    And, Mr. Chairman, thank you very much, and members of the 
committee. I would like to associate myself with all the 
opening statements of the committee leaders. A lot of good 
words were said in that messaging, as well as with my 
colleagues here.
    I am representing The Nature Conservancy. We are a large 
conservation group. Our mission is to conserve lands and 
waters, upon which all life depends, and I would like to say 
also air, which is even more fundamental.
    I have been involved in this issue for a long time at a 
policy level, and I am finding it hard not to say once again 
what we have been saying for years: An ounce of prevention is 
worth more than a pound of cure.
    And we go to these hearings year after year. It is almost 
repetitive. I have looked at some older statements. Once again, 
a terrible, terrible fire year. Once again, really bad impacts 
from smoke. I have experienced smoke impacts myself, 
personally, and with elderly family members, so I know it is a 
real problem. And yet we still often fail to invest in the kind 
of preparedness that we know is important.
    Air quality and the other negative impacts of these extreme 
wildfires can indeed be reduced if we do more forest 
restoration appropriately and we bring back more healthy fires. 
And that is part of a conundrum here, to understand that it is 
absolutely vital to get more fire on the landscape, but fire 
that we are controlling and will end up having the burns 
happen. And so that is the big challenge that we have.
    We need to be able to adjust our thinking to long-term 
solutions and not just short-term solutions. And without a 
clear focus on forest resilience, we are going to continue to 
have these smoke problems.
    All levels of government need to work with and support 
local communities to learn to live with fire and smoke. The 
challenge we often have with local air agencies, the only thing 
they can control is the prescribed fires; they can't control 
wildfires. And so they often have limited airshed space, and so 
that is what they restrict.
    So this is a key area of importance that your committee can 
have a very major role in helping us look at long-term 
solutions and long-term benefits of getting the right kind of 
controlled burns on the landscape.
    The preparation and risk reduction does work. We have seen 
it in many, many places. People have seen it. I know a Sisters, 
Oregon fire was greatly reduced when it hit some areas that had 
been treated, and I have seen it myself in some other extensive 
areas. So it is something we need to invest in upfront.
    I am a forest ecologist trained in forestry and biology, 
but this is really a social problem. It is a people problem. 
And so we are just not putting the attention we need to in 
working with people and communities. And a little bit of money 
invested in helping communities work--and I can talk for a 
moment about some solutions--really does work. And that is 
something we just need to do a lot more.
    I also can't pass up the opportunity today to once again 
say we need to fix the emergency fire suppression funding 
problem. We have been saying that for years and years. It is 
quite embarrassing. So I am very grateful for members that are 
here for working on fixing the fire suppression funding so we 
can do the upfront investments. And that solution needs to 
stabilize Federal budgets for upfront work. It needs to include 
disaster funding for fire. Fire is the only disaster that 
doesn't get funding through the disaster fund. And we need to 
reduce harmful borrowing of non-fire funds.
    With respect to the forest management reforms, I am real 
concerned that we be careful with taking too many shortcuts 
that avoid the use of science and local community involvement. 
I am very nervous about having very large projects approved 
without having local and science, and I think that that will 
have harmful impacts.
    The NEPA process can be streamlined, but it needs to be 
able to be done, to actually bring people in and build trust, 
and be able to look at cumulative impacts of lots of 
activities.
    Some key projects and programs The Nature Conservancy is 
involved in are wonderful examples, and they are really quite 
inexpensive, and I encourage you all to look at these: the Fire 
Learning Network, the Fire Adapted Communities Learning 
Network, the prescribed fire training networks.
    Today, there are, I think, five training programs going on 
today, October 4, around the country, helping bring communities 
and first responders together to learn better how to use fire 
for controlled burning. And that is the kind of real 
collaboration we need to focus in on, bringing local 
communities to learn fires before, during, and after the fires, 
working together, and bringing the full cycle of solutions 
together.
    I know I have been in Ashland, Oregon, a number of times, 
and there we are able to--we and many others are working 
together on a variety of solutions, all aimed at building the 
resilience that reduces the fire impacts.
    So, with that, I want to thank you for the chance to be 
here.
    [The prepared statement of Mr. Topik follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman yields back his time. We thank 
you for your testimony.
    Now we will go to the questions. I will start first, and I 
will recognize myself for 5 minutes.
    So this subcommittee is the Environment subcommittee, and a 
lot of our focus is going to be on air quality and issues. So 
the forestry debate, for some of those who live in the West, 
they know it, but this is like ``Forestry 101 for Dummies'' for 
us, so I have a couple quick questions.
    Mr. Bailey, you said ``fuels.'' So define ``fuels'' for 
those of us who are not from forest areas.
    Mr. Bailey. Sure. Do I have a 45-minute lecture here? No. 
All right.
    So we would first divide living fuels versus dead fuels. 
But, of course, the heat of the fire converts a living fuel 
into a dead fuel. But living fuel would be all the things that 
you would visualize when you walk through the woods out there. 
The dead fuels include those aerial fuels up above the ground 
surface----
    Mr. Shimkus. So it is not just dead trees.
    Mr. Bailey. Not just dead fuels--it is a whole----
    Mr. Shimkus. Is the dead trees the predominant fuel that we 
are talking about in this debate?
    Mr. Bailey. No. The dominant fuel that is driving fire-
spread on an individual hillside or across an entire landscape 
are the fine surface fuels, some living, some dead, because 
they are so reactive to the fire flaming front as it comes 
through.
    Mr. Shimkus. OK.
    Mr. Karels, you used the terminology ``hazardous fuels'' in 
your statement. So what is a hazardous fuel? Or is it the same 
thing?
    Mr. Karels. I think it is the same thing. It tends to 
become a hazard when it gets too heavy, when the fuels build up 
to where there are ladder fuels, ground--the surface fuels the 
doc talked about that has a ladder all the way to the tops of 
the trees. So you haven't thinned it; that forest is not open. 
There is not a prescribed fire program that is reducing the 
ground-floor fuels. Now you have a ladder to the top. Now you 
have pictures like the one you showed on the Columbia Gorge 
where the fire is going 150 feet high.
    Mr. Shimkus. So is the ladder to the top dead trees?
    Mr. Karels. Not just dead trees. When you have a drought, 
those live trees, fuel moistures go very low. The conditions 
underneath preheat, and it takes the live trees just like it 
takes the dead trees.
    So you have a combination of both. You have a combination 
of hazardous fuels that are dead trees and all--really, what we 
call all that ladder fuel in between. If you have a scattered, 
thin forest, you don't have those ladder fuels going to the 
top, and you tend to have a lower surface fire that is easier 
to suppress than the heavy fuels, the hazardous fuels that take 
it into the crown and run with it, run 14 miles in a single 
day.
    Mr. Shimkus. Let me ask a question. With the hurricanes 
that just went through Florida, was there a lot of toppling of 
trees so that there is a buildup of fuels in the State of 
Florida now?
    Mr. Karels. In the southwest portion of the state, there 
was. It will significantly increase the hazardous fuels through 
that lower portion of Florida, from about Orlando, Tampa, down.
    Mr. Shimkus. Is the State of Florida trying to manage that 
excess fuel?
    Mr. Karels. We are beginning that process. Really, right 
now, Chairman, we are just digging out. I am surprised I am 
here today, because I had 500 people in response right up to 
last week. But that is our next step, to start to deal with 
those fuels.
    Mr. Shimkus. And let me go to Mr. Marshall.
    Did you say something about break fuels? Or----
    Mr. Marshall. My specialty is fuel reduction, removing the 
fuel so there is lower risk of fire. What you will see in the 
West a lot of times is, fire doesn't acknowledge property lines 
or section lines, so where you have these checkerboard 
ownerships, we have implemented on our own forestlands, a 
thinning regime so that we actually reduce the fuel load, so 
when the fires come off the Federal lands, there is a chance to 
stop them because of our significant investments in these 
lands.
    Mr. Shimkus. And so let me go to the question I was 
supposed to ask from committee staff, and that is to Mr. 
Karels.
    One study indicates that wildfires burning within 500 miles 
of a city routinely caused air pollution to be 5 to 15 times 
worse than normal and 2 to 3 times worse than the worst non-
fire day of the year. How does that track with your experience?
    Mr. Karels. It tracks fairly well, Chairman, and, again, it 
depends on the winds. It depends on the conditions and where 
and stuff. But those are what we tend to call large, 
catastrophic fires, they put a tremendous amount of smoke, a 
tremendous amount of particle matter. And it is not uncommon 
for impacts 200, 300, 400 miles way.
    I will give you an example. We impacted the city of Chicago 
in 2007 from one of the swamp fires on the Georgia-Florida 
line. And just depending on how the winds are, it is that much 
of an impact with those heavy fuel loadings and those really 
large fires.
    Mr. Shimkus. Great. Thank you for your answers.
    Now I turn to the ranking member, Mr. Tonko from New York, 
for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    And, gentlemen, again, welcome.
    As you heard during opening statements, all the evidence 
points to a trend in recent years of more numerous and more 
severe fires. My supposition is that this is due to a number of 
factors, some of which involve forest management, but many are 
associated with the effects of climate change.
    According to a 2015 United States Forest Service report, 
``The United States burns twice as many acres as three decades 
ago, and Forest Service scientists believe the acreage burned 
may double again by midcentury.''
    A 2012 Climate Central report found that burn season is 2 
1A\1/2\ months longer than it was 40 years ago and that, for 
every 1-degree Celsius temperature increase the Earth 
experiences, the area burned in the Western United States could 
quadruple.
    So, Dr. Bailey, do you agree with this assessment?
    Mr. Bailey. Yes. I have read those reports and others. It 
is consistent.
    Mr. Tonko. So what are the specific driving factors for the 
longer fire season in recent years? And do you believe these 
factors are strongly associated with climate change?
    Mr. Bailey. From my reading, yes. Based on the warming, the 
reduced snow pack, the small change in seasonality of 
precipitation.
    And some of it is our definition of the fire season. It is 
not a hard-and-fast thing. It relates to the deployment of 
resources and that kind of thing, as well.
    But I don't think there is any question that it is. The 
fuels dry out sooner. We have to get our resources out there 
sooner. And they are out there later in the fall. So that is 
what translates to the longer fire seasons.
    Mr. Tonko. Thank you.
    And, Dr. Topik, what is your view of that assessment?
    Mr. Topik. Well, I certainly agree with that assessment. I 
would also point out, the challenge here is not just the number 
of acres but the type of acres. And so----
    Mr. Tonko. Meaning what?
    Mr. Topik. What I would like to see us have is lots of 
acres burn in a very low-intensity fashion, producing low 
emissions, low harmful smoke, rather than these big, bad, nasty 
fires. And so I also agree with my colleagues that we do need 
to do a lot more active management, but that has to be followed 
up with controlled burns to actually bring back the kind of 
resilience that, in a long term, will work.
    And, certainly, the climate change connection is real, and 
it is part of the problem of the vacillation of extremes. And 
so it just points to the need, I think, the opening statement 
remarking how important forests are for sequestering carbon. I 
mean, they are now sequestering, what, 13, 14 percent of the 
Nation's fossil fuel emissions. And so this is an area where we 
can intervene for all these benefits that our panel has 
discussed.
    Mr. Tonko. Thank you.
    And I believe that it is clear that any long-term 
preventative plan for wildfires and the dangerous air pollution 
they produce needs to get to the root of the problem and get 
serious about addressing climate change as a national priority.
    The 2014 National Climate Assessment found that, as 
temperatures increase to levels projected for the midcentury 
and beyond, Eastern forests may be at risk of die-off. Many 
Americans, including Members of Congress, typically see 
wildfires as a Western issue.
    So do any witnesses, particularly Mr. Karels, want to 
comment on whether there will be an increasing wildfire risk to 
the Eastern United States?
    Mr. Karels. Again, that is hard to say. Go back to Mr. 
Topik's discussion, is the type of fuels. When our fuels get 
heavier, when we don't manage the forest, when we don't 
prescribe burn, the numbers are going to go up and the impacts 
are going to go up.
    When you can prescribe burn, significant number of acres to 
make a difference, you have the opportunities to have these 
low-intensity fires that are, one, easier to suppress, or we 
can manage without the smoke impacts, without the timber 
losses, and still have fuel reduction efforts.
    So I look at it as more of how we manage our forest. If we 
keep our forest healthy, we can keep the numbers and, really, 
the real impact to our citizens down.
    Mr. Tonko. And are there any different forest management 
techniques or strategies to regulate or manage these fires in 
the East?
    Mr. Karels. In the East, especially the Southeast, 
prescribed fire is a significant tool. Florida burns 2.3 
million acres a year with prescribed fire. Every year, among 20 
million people, we burn that many acres each year. With the 
fuel growth in that subtropical environment, you would say, 
that is what keeps us from having absolutely catastrophic fire 
every year down there.
    And much of the Southeast does a very good job in that 
prescribed fire. It has been part of a culture, and the laws 
and stuff allow it. That is low-impact. You do have some smoke; 
you do have to manage it. But that is what our business does, 
is prevent impact to the citizens.
    So there are tools like that, and there is active forest 
management in the East, very much so. The Southeast is the wood 
basket of the world. And that active management helps reduce 
the fuels and those hazardous fuels I talked about earlier.
    Mr. Tonko. Thank you, Mr. Karels.
    Mr. Chair, I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes the chairman of the full 
committee, Mr. Walden, for 5 minutes.
    Mr. Walden. I thank the gentleman.
    And I think we have a couple other slides.
    I actually took this out of an airplane, flying back here. 
That is Mount Hood that rises 11,238 feet. So the fire picture 
you saw from Mr. Schrader was the face of this fire. This is up 
on top, then, a day or so later, looking out. You can see how 
that smoke just covers everything. That was all burning. They 
had 10 helicopters trying to put out that fire, and it was so 
smoky they often couldn't fly the helicopters.
    Go to the next one.
    This gives you a shot from the Washington side of the 
Columbia River. That is, I don't know, probably a half-mile, 
mile across river as it burns, and this is looking the other 
direction. But it just tells you this went on for weeks. And 
this is just one example of multiple fires.
    And I want to follow up with Dr. Topik.
    On your point about fire funding, we are all in. In fact, I 
was in a meeting in the Speaker's office with a number of the 
Westerners last night again, and he is being very helpful and 
supportive. I have great confidence that this administration is 
going to replace the funds, over $600 million, hopefully in 
this next tranche, so that we can get the money back into the 
account for the Forest Service.
    But you are spot-on. Every year, we repeat this stupid, 
stupid cycle of robbing the accounts that would do the forest 
thinning to pay for the firefighting while the fires are going 
on. So we don't do the preventive work because you have to pay 
for the fire. Then we replace the money when it is too late to 
do the preventive work because winter has set in. And then we 
repeat it. It makes no sense. It is four to five times more 
expensive to fight fire than to do the treatment.
    And while prescribed fire is very important and a subject 
of our hearing--and I know the CDC and the EPA are looking at 
studies on the effects of prescribed fire smoke versus wildfire 
smoke, and I think we are going see it is dramatically 
different because you can manage it. We can do even better than 
that by thinning out the forests and getting them back in 
balance.
    So we are trying to solve the fire borrowing issue. We are 
trying to solve the fire funding replacement issue. And, again, 
I think the Trump administration is fully on board to do that. 
But we need the management tools to be expanded in the proper 
way.
    You mentioned the Ashland Watershed Project. That is, I 
think, being done under the Healthy Forests Restoration Act, 
which I helped write, I don't know, a number of years ago. And 
I have been up on that project. It is expensive to do, but it 
is incredibly important to do to save that watershed above 
Ashland.
    But I want to go to our forestry professor from Oregon 
State University, because I would like you to answer about 
stand densities. We have talked about the fuel loads. But some 
of these stands on a given acre on the east side of Oregon 
should have how many trees in a dry forest environment versus 
what they have today?
    Mr. Bailey. It would cover a spectrum. The driest end, the 
ponderosa pine with a little juniper underneath, might be as 
low as 20 trees per acre, so truly a savannah or a woodland 
instead of a forest.
    Mr. Walden. And on those sorts of forests today that have 
been left untreated and unburned, how dense is that?
    Mr. Bailey. Some of them that I have gone into are a 
thousand stems per acre.
    Mr. Walden. A thousand trees per acre where it should be 
20. This is the fuel loading. And every year some of those die, 
the growth continues. It is like just adding more gas into 
another can. And you just wait.
    We get dry lightning in the West. Here, you get these 
thunderstorms and it rains and washes everything. We just don't 
get the rain. It shuts off. We went, I don't know, 88, 90 days 
with no rain this summer. It is not abnormal, a little 
abnormal. And temperatures are rising, the climate is changing, 
I get all that. But we have this building fuel load that we 
need to deal with.
    And on the west side, in terms of overstocking, what 
forest?
    Mr. Bailey. Well, similarly, there is less of a frequent 
fire history on the west side. The Douglas fir forest, 
including down into your part of the country, probably we had 
surface fire in there maybe every 40 to 70 years or so, 
historically. But those stands also are more dense because we 
have been excluding fire longer than that.
    Mr. Walden. Yes.
    I want to quickly, in the remaining few seconds I have--Mr. 
Marshall, thanks for being here, first of all. From your 
perspective, there was a lot of discussion about how fires are 
fought on Federal land, within certain designations on Federal 
lands, versus state lands, county lands, tribal lands, and 
private lands. What did you see this summer? What should we 
know?
    Mr. Marshall. There is a little bit of a perception, I 
believe, that we need to understand fire and understand its 
healthy impacts, but my perception is we are seeing that that 
really has a window, just like we are seeing the window of 
these fires blowing up and being, in my opinion, truly 
catastrophic.
    So I heard a lot about healthy fire, healthy fire from the 
agencies where, on the lands that you referenced that are 
Federal, we are seeing initial attack, stop the fires, mitigate 
the risk.
    Mr. Walden. You are also doing active management then.
    Mr. Marshall. And we are actively managing, so we see 
ground fire, so my perception is that there is a little bit of 
an understanding that we need fire, but it isn't understood 
when that time is, and so the Federal agencies are backing off 
a little more regularly than we see the other agencies, and the 
fires are getting bigger, faster, and more severe.
    Mr. Walden. Thank you.
    Mr. Shimkus. The chairman's time is expired. The chair now 
recognizes the gentleman from California, Mr. Peters, for 5 
minutes.
    Mr. Peters. Thank you. I want to just start by thanking 
Chairman Walden for his comments about wildfire funding. In the 
113th and 114th Congresses, I supported the Wildfire Disaster 
Funding Act and even led a discharge petition to bring the bill 
up on the floor, because we don't want to be spending 
prevention money on fighting fires, and we do that, as I 
understand it, because of a fealty to this year-by-year 
scoring, and it is the silliest thing to say we are going to 
save money this year, but we know that it is going to cost us 
more next year. We ought to just understand, make a decision 
like a business or a family would here, and spend money on 
prevention to save money later. And so, I would say to the 
chairman I would love to work with you on that. There are a lot 
of nonsensical things that we come across here, but I think 
that is just idiotic.
    I know that the Nature Conservancy has done some work on a 
carbon offset program, and that is a California kind of thing. 
We have a cap and trade system there that is not the Federal 
Government's approach, and I understand that in California, 
that the trading of offsets has been able to reduce emissions, 
but I would like to ask maybe Dr. Bailey and Dr. Topik in 
particular, can you tell me what Federal policy is missing? If 
you could change three things, what would you change? I will 
start with Dr. Bailey.
    Mr. Bailey. So could you ask the question again?
    Mr. Peters. What is Federal policy missing? So I hear a lot 
of violent agreement about the need to deal with forest fires. 
Where are we falling short? What would you like to see us 
change? You are talking to the decisionmakers in the Federal 
Government, what would you like to see done differently? Or 
more or less?
    Mr. Bailey. Yes, so the forest service, sometimes we are 
guilty of criticizing the forest service for not doing this or 
doing this. But they are a great group of individuals, and they 
are doing as best they can with the laws, the rules, the 
administrative rules and policies and case law that drives them 
to this situation where they have a hard time doing their job 
as foresters in my opinion.
    So we are probably overdue for an overhaul that updates the 
sets of rules that they operate under, now that we have a 
better understanding of the role of wildfire.
    Mr. Peters. So the rules that govern the forest service are 
too restrictive in terms of allowing them the freedom that they 
need to do their jobs.
    Mr. Bailey. To do their jobs.
    Mr. Peters. Dr. Topik?
    Mr. Topik. I am going to cheat a little bit here, but the 
first thing is really getting serious and implementing and 
funding the National Cohesive Strategy for Wildland Fire 
Management. There we have a well-thought-out plan that has been 
agreed to by the League of Cities, by the National Association 
of Counties, by the states, by the tribal organizations and all 
the Feds, and it calls for some really important action. And so 
the strategy can make a big difference. So that is one thing.
    Secondly, I mentioned before the fire suppression funding 
fix. I would love to see that in the next disaster relief bill. 
And then, I think, the third thing is the social engagement, 
the small amounts of money to fund people to help bring 
communities together so that they can learn and bring science 
together with collaboration at a local level.
    Mr. Peters. When a community comes up against science and 
doesn't agree with the science, what do you do then?
    Mr. Topik. It is pretty amazing. What I have seen in 
practice, for instance, in Bend, Oregon, in the Nature 
Conservancy, we have a guy who is just so good at doing GIS, 
geographic information systems, so in real time, you can sit 
down and have the scientist with people do what-if scenarios. 
And so that is not free. It takes time. So I think that is the 
kind of thing we need to invest in, so that the science is 
directly understandable and displayed to people.
    Mr. Peters. Do you disagree with Dr. Bailey's assessment 
that the forest service's hands are tied by political 
constraints?
    Mr. Topik. Well, I would like to see them do a lot more, 
and I know they want to do more, and I think, once again, if 
you look at the real buying power, I was one of the, I hate to 
admit it, so long ago, I was one of the authors of the National 
Fire Plan back in 2001 and we did an initial rapid increase in 
funding for the engagement, including hazardous fuel reduction 
and community engagement and restoration. And then it just 
waned. And the real buying power has dropped dramatically, and 
so that is a big problem. When you have Federal agency staff 
you have merged countless numbers of ranger districts where I 
used to work anyway.
    Mr. Peters. OK. Thank you, Mr. Chairman. My time is 
expired.
    Mr. Walden. The gentleman's time is expired. The chair now 
recognizes the gentleman from Mississippi, Mr. Harper, for 5 
minutes.
    Mr. Harper. Thank you, Mr. Chairman, and thanks to each of 
you for being here, and certainly what difficult times we have 
had in certain places in our country, particularly in Oregon, 
and you look back and certainly we can come up with the causes 
and reasons why this was worse. But would it be safe to say 
that each of you agree that if we actively manage forests, that 
that significantly reduces the risk and severity of wildfires. 
Does everybody agree with that?
    Mr. Bailey. Yes.
    Mr. Topik. Yes.
    Mr. Marshall. Yes.
    Mr. Harper. OK. Obviously how we go forward is going to be 
most important, because there are other spots just waiting for 
another tragic wildfire that impacts a community. So what I 
want to ask each of you, and if you can just briefly, if you 
could say what would be maybe the top regulatory or legal 
impediment to forest management? Is there something that just, 
Hey, this is it, this is the top thing, and we could start with 
you, Mr. Bailey.
    Mr. Bailey. In my experience in working with the 
collaborative groups, that is where the action is going to be 
in the future, is the NEPA process itself is applied at such a 
small scale, individual projects of just a couple acres, it 
still needs to go through this involved NEPA process that I 
think is well beyond when that law was written and what NEPA 
was intended for, and we tend to just over apply it for 
relatively small, meaningless activities.
    Mr. Harper. So, Dr. Bailey, if we were able to speed up 
that timeline and not make it on every small thing, that is 
going to have a positive impact?
    Mr. Bailey. The process and the timeline it is very 
important it is going to be hard to speed it up, but we don't 
need to apply it on a 20-acre thinning. We can apply it on a 
50,000-acre landscape management plan.
    Mr. Harper. All right. Thank you. Mr. Karels?
    Mr. Karels. I think I am pretty close with Dr. Bailey. 
Allowing those larger landscape scale projects, that 
categorical exclusions allow them to implement some of these 
practices that reduce the fire threat. An example with putting 
a state agency in a state forest and a national forest beside 
each other, and we can implement the same project in one month 
on a state forest, which may take 3 to 5 years on a national 
forest. And it is not because they don't want to do it; it is 
because, as has been said, their hands are tied of going 
through that very intensive process, and then sometimes the 
legal battles that come out of it.
    Mr. Harper. And so those impediments, as you are saying, 
differ between Federal, state, and privately owned lands. So 
that creates different time frames is what you are saying. 
Would that be correct, Mr. Karels?
    Mr. Karels. Correct, yes.
    Mr. Harper. OK. And, Mr. Marshal, tell us what we can do?
    Mr. Marshall. I agree completely with my two colleagues. We 
have a problem with the planning and the NEPA process. We see 
successful instances throughout the west where this moves 
quickly, and we get good products where we have, for lack of a 
better term, a social license within the community, because the 
community is well-educated to Dr. Topik's point. What doesn't 
still insulate us from the success of those projects is 
somebody coming in and sticking a cog in the spokes of the 
wheel and stopping the whole project. So we still see great 
projects moving forward. Things are getting done. But then we 
move to another region where there is a negative view of 
restoration efforts, and it can just stop with a lone legal 
challenge.
    Mr. Harper. And having unmanaged, how should we say, 
surface fuel is going to be a problem to deal with if we don't 
solve it. Dr. Topik, I would to hear your view.
    Mr. Topik. Just to change the theme a little bit, we do 
need to invest some money in this activity in getting people 
together and getting the communities together. So I think we 
have to be serious, also, about providing funds so local 
communities can work together and get projects done at big 
scale, like the others have said.
    Mr. Harper. Thank you all for being here. My time is almost 
expired. I yield back. Thank you, Mr. Chairman.
    Mr. Walden. The gentleman yields back his time. The chair 
now recognizes the gentlelady from California, Ms. Matsui, for 
5 minutes.
    Ms. Matsui. Thank you, Mr. Chairman, and thank all of the 
witnesses for being here today. Already this year we have seen 
many natural disasters hit communities across the United 
States: hurricanes, flooding, tornados, and hail, have taken 
lives and destroyed property. Unfortunately, we can add 
devastating wildfires to this list. These wildfires have burned 
more than 8 million acres of land, have serious consequences. 
They degrade drinking water quality, destroy wildlife habitat, 
and limit outdoor recreation. And as we have learned from our 
witnesses, they impact our air quality.
    I have repeatedly highlighted for this committee how the 
Sacramento region in California, in my district, struggles with 
air quality, and in the summer, wildfire smell contributes to 
our air quality challenges. I call them ``challenges'' because 
we view poor air quality as a problem that can be solved. I am 
pleased that our witnesses share that view that there are 
proactive and environmentally friendly steps we can take to 
reduce fire risk and improve air quality.
    Dr. Topik, in 2014, the King Fire burnt over 97,000 acres 
in the American River Watershed near Sacramento. The fire 
caused particulate matter pollution to reach unhealthy and 
hazardous levels over the large region in Northern California. 
I understand The Nature Conservancy has partnered with 
environmental groups, local agencies, and the forest service to 
speed watershed restoration in the American River Watershed 
under the French Meadows Forest Resilience Project.
    Dr. Topik, how does this project and other Nature 
Conservancy collaborations help us better manage our Federal 
lands to approve the health of our forests and protect our air 
quality?
    Mr. Topik. Thank you. I am not an expert in that specific 
project, but I have been nearby to other places. I think the 
key there, as in many places, is getting people together to 
have a joint vision, and actually implementing it. And so in 
French Meadows and nearby--elsewhere are studies in the 
Mokelumne River, which provides the water for East Bay. We have 
done analysis that shows getting in and helping treat these 
areas pays, just like the full committee chairman has said, it 
pays. So I think that is a key.
    Last week, as part of the forest climate working group, I 
heard some fascinating work in California regarding forestry 
and the use of carbon offsets that Mr. Peters had talked about. 
And so there, I think, State of California alone is committing 
$200 million for all kinds of forest-resilient treatments, and 
I think getting that kind of cooperative work is vital.
    I wanted to--I didn't mention in my statement, but a really 
good comprehensive research summary paper by Scott Stephens, 
Brandon Collins, Eric Biber, and Peter Fule has a very good 
discussion of air quality in the San Joaquin Valley, and I 
encourage you to take a look at that.
    Ms. Matsui. Thank you. Dr. Bailey, as you say in your 
testimony, you have had a tough fire season throughout the 
west, including in California. In California, we have already 
had 230,000 acres impacted by wildfires. This is 30,000 acres 
above the 5-year average, despite the fact that we have had one 
of the wettest winters on record.
    Dr. Bailey, how much of impact does winter precipitation 
have on the strengths of summer fires and the length of the 
fire season?
    Mr. Bailey. Yes, it is a little counterintuitive. And 
actually, when I talk to students, I usually explain the great 
old adage that if it is a dry winter and a dry spring, all of 
us firefighters are going, oh, yes, it is going to be a good 
fire year because it is dry and the fire season starts early. 
And if it is a wet winter and a wet spring we go, oh, it is 
going to be good fire year because it grows all of those fuels, 
and particularly those fine fuels, they become more abundant 
and more continuous than they typically are. And so when it 
does inevitably dry out, as it does in Oregon and California, 
and they inevitably catch on fire, it burns very continuously. 
So either way, and that is part of the lesson of the wildfire 
being inevitable. Either way, we get a fire season.
    Ms. Matsui. So a wet season we are going to have fire.
    Mr. Bailey. Always have, 10-, 15,000 years.
    Ms. Matsui. All right. Sacramento County has a large 
population of approximately one and a half million people 
located near many Federal and state lands.
    Dr. Topik, have you seen any unique challenges with 
addressing wildfires are in close proximity to large urban 
centers?
    Mr. Topik. It is really hard to convince people that 
suffering from smoke from controlled burns is worth it, and so 
I understand that and realize that and have seen it, but that 
is why we need to get better tools and get people together to 
actually see that they can have benefits. And I referenced, in 
my statement, a comprehensive science review paper on air 
quality and smoke, and they are saying that controlled burns 
are going to produce perhaps as little as one-tenth the amount 
of smoke as wildfires. And so convincing people and bringing 
people into that conversation is absolutely essential.
    Years ago, I was in Florida where they have to do 
controlled burns constantly for longleaf pine every 4 years, 
and the people with their rows of $1-million houses with 
swimming pools next to the state park, they were just told 
ahead of time when they were going to do a burn, and everybody 
covered their pool up, but that didn't happen overnight. It 
took a lot of people.
    Ms. Matsui. Education is necessary. Thank you very much, 
and I yield back.
    Mr. Walden. The gentlelady's time is expired. The chair now 
recognizes the gentleman from Texas, Mr. Olson, for 5 minutes.
    Mr. Olson. I thank the chair, and welcome to our four 
witnesses. This is a very important hearing for me. My wife 
spent a lot of time as a young girl in Sun Valley in Ketchum, 
Idaho. She loved it so much, last Thanksgiving we bought a 
small condominium in Ketchum, a fire zone in Idaho. We have 
spent the last half year calling our landlord every 2 weeks to 
make sure our condo is not threatened by fire.
    My home State of Texas doesn't have much public land, so we 
don't have the problems of mismanagement by the Federal 
Government. We can have some big fires. The fire on the screen 
was historic Bastrop County, Texas, September through October 
of 2011. This image is from our state capital, Austin, Texas. 
It is 33 miles east of Bastrop. The Gulf Coast surface winds 
tend to blow from the southeast so that smoke blew over Austin, 
Texas and probably San Antonio. Higher up, the jet stream takes 
that smoke to the east. It came over my home town of Sugar 
Land, Houston, Texas and probably Dallas and Fort Worth, as 
well.
    Also, right there by Bastrop is a very special part of 
Texas. It is unique. It is called the Lost Pines. Those pine 
trees are 150 miles, many of the pine trees in Texas. Somehow 
they settled around Bastrop. They were threatened by that fire. 
That fire put most of my state out of compliance with the Clean 
Air Act. My state asked for an exceptional events exception. 
They were denied by the previous administration multiple times. 
Look at that photo. Is that massive wall of fire and smoke 
unexceptional? No. That is very exceptional. That is rare.
    So my question, Mr. Karels, is can you talk about what your 
work could do to actually improve air quality before we have a 
fire like that?
    Mr. Karels. I don't think, from our end, we have the 
ability to improve air quality to start. What we do try to do 
is reduce the fuels ahead of time, so that do we tend to have 
less of those catastrophic events. I was there. I have seen 
your Lost Pines and the homes that were lost in that Bastrop 
fire. But doing the reduced fuel efforts, active management, 
prescribed fire, reduces the catastrophic events that we tend 
to have.
    Now working very closely with EPA and with your States from 
my end, it is our State DEP, which is our State EPA, working 
closely with them, having smoke management plans and dealing 
with it, knowing the context for those exceptional events like 
that is the key in trying to, I think, reduce the impact, 
because, yes, I agree with you, that was very much an 
exceptional event, but we are forced, then, to come back and 
say we got to approve that. But with a wildfire that size, that 
should be something that should be done, should be something we 
should be able to easily approve.
    Mr. Olson. Any change you want from EPA to help you out 
with this effort to stop those fires like that that Bastrop 
county had in 2011?
    Mr. Karels. Could you repeat that?
    Mr. Olson. Any questions, something you would like EPA to 
do that they are not doing now to help you avoid something like 
we had in Bastrop?
    Mr. Karels. I think EPA, in at least some regions of the 
country, is better in recognizing that there are issues like 
prescribed fire that do cause particulate matter and do cause 
smoke, but it is needed to reduce the catastrophic events. So 
in some areas, they are starting to recognize that. That is 
what we want to do is recognize that doing treatments on the 
land is important to prevent these really bad days, air-
pollution days that big wildfires cause.
    Mr. Olson. Thank you. I am running out of time. One other 
question for the record about the Western States Air Resources 
Council and the comment to the EPA's proposed revisions to the 
exceptional events rule and their quote was, ``Ideally, EPA 
should work with State and Federal fire reporting agencies to 
develop a database of their emissions of significant 
wildfires.'' And so, I would like to submit it to you guys. Is 
that a good idea? Is that working? So we can get some 
intelligence beforehand how, we can stop these fires from 
getting out of control. Thank you. I yield back.
    Mr. Walden. The gentleman yields back his time. So he is 
going to submit that question for you for response, and we will 
do a statement at the end of the hearing to tell you how many 
days. If you would do that, we would appreciate it.
    The chair now recognizes Congressman Ruiz for 5 minutes, 
Dr. Ruiz, I should say.
    Mr. Ruiz. Thank you. I appreciate it, Mr. Chairman.
    Wildfires are a longstanding and frequent threat to western 
states, particularly California, and have only increased in 
intensity and frequency over the years. While wildfires present 
a clear threat to property and public safety, they also 
significantly affect, as we know, the air quality by increasing 
the number of toxic particulates in the air. The effects of 
smoke range from eye and respiratory irritation to more serious 
conditions like bronchitis, stunted lung development in 
children, increased asthma attacks, and even for some, 
premature death. So we need to find solutions to mitigate these 
public health risks before they become worse.
    I work in the emergency department in the desert, and 
sometimes when patients come in with smoke inhalation, or if 
there is a wildfire, people with allergies, they come into the 
emergency department and not only it affects their own personal 
health, but as you can imagine, the economic burden for a 
community, for a family, and for society is really high.
    In California, we all know that climate change has 
exacerbated severe weather patterns, and we are seeing more 
intense and more frequent fires. There are other factors that 
dry up or kill these vegetation and make them prone to burning 
as well. But there is more and more abundant fuel that make 
conditions ripe for uncontrollable wildfires, and that is 
exactly what has happened. Wildfires are more severe than ever 
before, forcing thousands of Southern California residents to 
flee their homes, putting at risk the lives of our men and 
women who are our heroes who go out to put out the fires.
    In my area in the south coast, air quality management 
district, which manages the district I represent, has issued 
frequent smoke advisories this year, warning residents of the 
harmful air quality from the smoke and ash. Smoke that wafts 
over from wildfires in San Diego and Santa Barbara fills the 
sky of Coachella Valley, that is the Palm Springs area in 
Southern California, endangering the health of my constituents. 
And although most wildfires occur in western States where the 
fires are large and numerous enough, the small particulates can 
be carried thousands of miles, and those small particulates, as 
you know, can cross the lung-blood barrier, so you breathe it 
in. Whatever goes in there goes straight into your blood. That 
can be very harmful for individuals across the Nation.
    So without a doubt, the number and size of wildfires will 
continue to grow, so we have to consider more adaptive 
solutions and strategies.
    Mr. Topik, you mentioned in your testimony that relatively 
small investments in our community's ability to prepare for and 
respond to fires has resulted in reduced negative impacts to 
the lives, health, and prosperity of our citizens. Can you 
expand on these small investments and their beneficial impacts 
on the public health, and also, the economic impact that we are 
saving?
    Mr. Topik. Thank you. I think the answer is predicated upon 
this science that suggests controlled burns are going to have 
less harmful smoke than smoke would happen from wildfires. And 
so, given that, the kind of community activities--I had the 
unfortunate experience of going almost every year in the 
previous decade to Southern California during the fire 
disasters, including the time, 1 million people were evacuated 
in San Diego County and a score of people died, and so these 
are terrible situations. But getting communities, and in that 
case, some of the richer communities, Santa Fe, they had fire 
safe zones--they hadn't been able to plan ahead, and they had 
the resources to do it. Other places, we saw places where 
people just didn't have the resources. So getting the 
communities together, and I wanted to mention for Texas, the 
Austin area is one of the members of the Fire Adapted 
Communities Learning Network. And I think that is really 
important.
    Mr. Ruiz. Can I ask you all some technical questions? There 
are different ways that we can prevent or mitigate future 
fires, but how about the wildfire resistant vegetation, how 
does that work, Mr. Karels? Planting these resistant 
vegetation, what are these resistant vegetation? How much of an 
impact does that make?
    Mr. Karels. And you are able to get it in each state, look 
at, they will put a brochure out, and some vegetation burns 
readily and is very dangerous to be close to your homes, and 
other vegetation doesn't, and that is what they call fire-
resistant vegetation, just types of vegetation that doesn't 
readily burn. They also incorporate that in with defensible 
space, and that means moving the vegetation that does burn away 
from your homes a minimum of 30 feet, ideally more than that, 
to prevent home loss. So that is kind of what that fire 
resistant vegetation is. State of California would give you 
those plants that are less likely to burn that are good around 
your homes.
    Mr. Ruiz. Thank you.
    Mr. Walden. The gentleman yields back his time. The chair 
now recognizes the gentleman from Ohio, Mr. Johnson, for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman. I appreciate the 
recognition. Important topic that we are talking about today.
    Mr. Karels, the EPA has tightened national ambient air 
quality standards for ozone and particulate matter in the last 
few years. Do lower air quality standards make it more 
difficult for fire managers to pursue effective fire management 
policies?
    Mr. Karels. They can. However, if ahead of time, you have 
your partners, you do in your state--and this is a state-by-
state issue, even though we are dealing with EPA--it is a 
state-by-state issue. If you have your smoke management plan 
that you worked with your state EPA, and from our end we also 
work with our state highway patrol because of the safety issues 
of smoke on the highway. And we developed together those three 
agencies' smoke management plans that EPA then approves, and 
with that approval, that brings everybody together in that 
partnership.
    Fire doesn't know any boundaries, so just about everything 
we do to reduce the threat, whether it be air pollution or a 
threat to our forests or communities has to be partnerships 
from the Federal, state, and local.
    Mr. Johnson. All right. So how can wildfire emissions 
affect an area's ability to comply with these national air 
quality standards?
    Mr. Karels. If a wildfire would exceed those air quality 
standards, you have exceedance, and then you have, as a state 
agency, as a state, you have to then go to EPA and say this was 
a wildfire event and prove that that reason that air quality 
had an exceedance, or in other words, a bad air quality day, 
was because of those wildfires. But you have to work with EPA 
and your local state environmental protection to deal with that 
exceedance issue.
    Mr. Johnson. OK. And maybe you just answered this, but if 
they cannot comply for whatever reason, what then happens? Are 
they fined? Is there some penalty?
    Mr. Karels. If they can't comply, and what EPA then--and I 
am not the expert on this, I have to be very careful--one of 
the three of you are any better at it? I am more than willing 
to give it.
    EPA can come in and say this is an impact area. I am 
forgetting the terminology they use. That then makes you adjust 
what smoke and what air quality issue you have in that area. So 
if it is a wildfire, you always want to come back, and if it is 
a wildfire that exceeds EPA's requirements for air quality, you 
want to come back in and work with them to not put this as an 
area that then has future economic issues with all air quality 
issues.
    Mr. Johnson. OK. All right. Well, you note that--and I 
quote out of your testimony, ``The task for wildfire managers 
is to manage the risks to communities and ecosystem values in 
both the short-term and long-term by implementing a coordinated 
and science-based program of fuels reduction, fire suppression, 
and community planning.'' Tell me more about community 
planning.
    Mr. Karels. As I said earlier, fire knows no boundaries, so 
whether that fire comes from state jurisdiction or Federal 
jurisdiction, it comes into that community, that community has 
to be prepared, too. Just like you want under the national 
cohesive strategy for wildfire, you want fire-resilient 
landscapes. You also want fire resilient communities, 
communities that are prepared for fire, especially in the west 
where it is something that you see significantly. They are 
prepared for fire. They know they have a plan. They have the 
strategic boundaries to treat strategic fuel breaks. They know 
what to do in the way of evacuations. They have defensible 
space. All of that is fire planning, as well as the suppression 
effort. The local fire department, the state jurisdiction, and 
the Federal jurisdiction are all working together ahead of time 
so they have a good response. That is that community planning 
that helps to reduce that threat to the community.
    Mr. Johnson. OK. In the short amount of time, would any of 
the other panelists like to comment on community planning?
    Mr. Bailey. I will always take an opportunity to talk. When 
we came back to this idea of fire-resistant vegetation and all 
that kind of stuff, the only thing I would add to that is, 
fire-wise construction of the actual homes that are in the 
community and getting the community on board and supporting 
each other to do that work, because often, if you can bring in 
one dump truck and get rid of a bunch of things that will get a 
bunch of neighbors together to clean their gutters, all the 
weeds underneath their deck and all that kind of thing, because 
as often as not, I see houses catching fires and burning up the 
vegetation, rather than the vegetation catching on fire and 
burning the house.
    Mr. Johnson. Got you. OK. Well, thank you. Mr. Chairman, I 
yield back.
    Mr. Walden. The gentleman's time is expired. We have a lot 
of Californians on this committee, so another Californian, 
Congressman Cardenas, from Los Angeles, you are recognized for 
5 minutes.
    Mr. Cardenas. Thank you very much. Can one of you gentlemen 
help clarify if this statement is true, that the States are not 
penalized in the event of a wildfire because of EPA's 
exceptional events rule, and as well, are exempt when there is 
a controlled burn as long as there is a smoke management? Is 
that afforded to the states? Is that an accurate statement?
    Mr. Bailey. It is outside of my area. I know that when the 
exceedances, or when you apply for that extraordinary event 
kind of thing and it is denied, it becomes an exceedance, and 
they somehow accumulate and all that kind of stuff. The 
problem, in my mind, is that the wildfire smoke is largely 
unregulated, whereas the small amount of prescribed smoke is 
regulated. And so if that is the only thing that you can 
regulate, including like your child's behavior, if there is 
only one little thing that you can do, that is what you crank 
down, and yet all this crazy other stuff is going on that you 
have no control over.
    Mr. Cardenas. So apparently, the exemption exists. It 
doesn't mean if you applied that you are going to get it. That 
is the issue. OK.
    I constantly think about our responsibility as a community, 
whether it is private-public sector, et cetera, private 
property, public property, is pay now or pay later. I think 
that this dialogue that we are having today, there is a dynamic 
of pay now or pay later. If we can do prevention and 
intervention, et cetera, whatever government it is, whether it 
is local government or assistance by the Federal Government to 
help with that prevention, I think that what we will have is 
less wildfires, less catastrophe, less need to ask for an 
exemption by the EPA, et cetera.
    So I think that the question begs is have we had, in recent 
time, in the last 10 or 15 years, any decent or expansive cost-
benefit analysis at the Federal level? And/or have we seen any 
really good studies at the state or local level that we can 
actually apply across jurisdictions, so we can actually, maybe, 
start encouraging and/or helping with best practices?
    Mr. Bailey. I think most of the studies are going to be a 
smaller scale. It is not something you would call a 
comprehensive national assessment of whether the National Fire 
Plan money or the Hazardous Fuel Reduction Act paid for itself 
or so, I haven't seen that, but certainly, I have seen the 
smaller-scale analyses.
    Mr. Cardenas. So it sounds like some jurisdictions have 
taken upon themselves to try to figure out if they can get at 
some best-practice proof, but it sounds like, from what your 
answer is, that at the Federal level, we haven't funded a nice, 
comprehensive study, at least in our lifetimes of considering 
these issues?
    Mr. Bailey. Or I haven't seen it. I don't know, Chris?
    Mr. Cardenas. That is what I am saying. There is a lot of 
collective knowledge here at the table, there is not an 
absolute answer, but it sounds like we really haven't seen that 
sponsored from the Federal level, again, by the collective 
folks that we have in front of us.
    Mr. Topik. Just briefly, I think we need more of that 
study, but there is some really good work done at Northern 
Arizona University Ecological Restoration Institute that was 
done directly for the OMB to help address some of these 
questions looking at the successful impacts of hazardous fuel 
reduction, and so, I commend the work of those folks. It is 
quite pertinent to this.
    Mr. Cardenas. Mr. Topik, can you explain the process for 
cleaning up fuel loads on private lands, and also on Federal 
lands? And what about companies' utilities that have easements 
on public lands? What is the climate like right now when it 
comes to that activity?
    Mr. Topik. With respect to the utilities, that is really 
important. It is exciting to see, for instance, in Colorado, 
Xcel Energy partnering with the forest service and other large 
landowners to get work done on a broader scale, not just under 
their rights of way, but areas near their rights of ways. And 
so, those kind of partnering, Denver Water, helping commit 
monies to protect--there is so much room to also then bring 
together corporate money, and new financial instruments. There 
are people developing resilience bonds for impact investing. So 
there is a lot of things that are out there, but there is a lot 
of need for more of that.
    Mr. Cardenas. So you just described some good practices of 
pay now rather than pay later. For example, when it comes to 
utilities aren't down power lines the cause of sometimes some 
tremendous fires, because of downed power lines? And with all 
due respect, if that utility is screaming bloody murder like, 
Hey, can we please get in there and actually cut back so we 
don't have that incident occur, and if they are thwarted, then 
oops, we may have a wildfire that could have been prevented, 
correct?
    Mr. Topik. I definitely support utilities having ready 
access to keep control.
    Mr. Cardenas. Thank you. I yield back my time.
    Mr. Walden. The gentleman's time is expired. The chair now 
recognizes the gentleman from North Carolina, Mr. Hudson, for 5 
minutes.
    Mr. Hudson. Thank you, Mr. Chairman, and thank you for 
calling this very important hearing. And thank you to all the 
witnesses for excellent testimony. This is certainly an 
important issue, not just for the west, but all across the 
country, and, back home in North Carolina, we like to talk 
about common sense, and I think this really just boils down to 
the Federal Government allowing commonsense practices and then 
the kind of things that you have talked about. Mr. Karels, did 
I say that correctly?
    Mr. Karels. Karels.
    Mr. Hudson. Correct me. Karels. I am sorry. You mentioned 
in your testimony the Good Neighbor authority. You talked about 
the Good Neighbor authority allows states to engage in work on 
Federal lands, including increasing the opportunities for the 
Federal forest management activity by using state resources. In 
my district in North Carolina, we have the Uwharrie National 
Forest, and we have seen, in the case of our forest, many of 
the roads have degraded significantly, and with travel, age, 
elements. I have seen, firsthand, this is more than just a 
headache for residents that have to use the forest road to 
access their homes, but it is a real safety issue, because fire 
trucks and ambulances can't get down these roads when we have 
major rainstorms. So it is a real safety issue for us.
    And my understanding is the Good Neighbor authority 
currently is limited because there is a prohibition on all 
roadwork, even repair and maintenance and reconstruction 
activities on existing forest service roads, which, as you 
know, are key parts of forest management activities. What kind 
of real-world problems have you encountered in your state 
because of prohibitions of roadwork with the Good Neighbor 
program?
    Mr. Karels. In our state we signed the Good Neighbor 
authority agreement with both the national forest in Florida, 
and actually the national forest in Alabama. We are a little 
bit oddball that we would sign with adjoining state, but they 
butt up against a very large state forest we have.
    If you are going to do activity in the forest, fuel 
reduction, forest thinnings, any of that, you have to maintain 
the roads. For us in the south, those roads are sandy. Those 
log trucks will quickly sink down, and if you are not able to 
at least keep them to a minimum standard to move equipment back 
and forth, you can't accomplish the task. So that is a 
limitation. It is very much a limitation in the west. This Good 
Neighbor program is an excellent program, and it is growing 
over--I think over 30 states have signed in. A lot of projects 
are starting. But we can continue to improve it, and your 
thoughts are right online in the ways that we can improve it 
with the next farm bill, or whatever that may be.
    Mr. Hudson. So in your opinion, if we can do a legislative 
fix to allow roadwork to be part of that, that would be an 
improvement?
    Mr. Karels. At least maintaining those roads, yes.
    Mr. Hudson. Anybody else want to jump in on there? I am 
seeing nods.
    Mr. Marshall. I would definitely agree. We see 
circumstances where the roads potentially have even been 
abandoned, and it makes it very difficult to put a full-front 
attack on stopping a fire, especially even in the instance 
where it could be a community or, public or private resource is 
impacted. So certainly, that would help a lot to be able to 
address the roads and have that part of the Good Neighbor 
authority.
    Mr. Hudson. I appreciate that. And even beyond the safety 
interests, if you are concerned about erosion and the impact, 
and even particulate matter in the atmosphere. In many cases, 
being able to pave a road is better than having a gravel road 
that is deteriorated and you have got lots of environmental 
impact. So anyway, I appreciate your thoughts on that.
    Mr. Chairman, I yield back.
    Mr. Walden. The gentleman yields back his time. The chair 
recognizes the gentleman from Michigan, Mr. Walberg, for 5 
minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks for having 
this hearing. I had the good privilege to be out in Montana and 
Wyoming in August, and performing a wedding ceremony of one of 
my staffers out there, and with a backdrop of West Glacier a 
little hazy, a little hazy. Two weeks later, they closed it 
off. Heading down a few days after that to Yellowstone and the 
Grand Tetons, and out to the Big Horns and seeing still all of 
the haze there from the fires and smelling the smoke in certain 
places, very concerning.
    I have seen too much of that happening, and if there are 
ways that we can get a handle on it, and use appropriate 
forestry tactics to make sure that the forests grow well, and 
we have the resources continued, that is a great thing, but it 
just seems like that we are seeing these resources subdued by 
fire and other things. So I appreciate this hearing today.
    Some states seem to be doing better than others in reducing 
the risk, and, Mr. Karels, is this due to differences in the 
way states approach management? And are there lessons from 
states that have lower wildfire risks that can be applied to 
states with higher risk?
    Mr. Karels. Any state can have a high risk, whether it be 
Michigan, Florida, or Oregon, depending on a given year. Some 
of the benefits are the state laws that are in place that allow 
you to do these treatments on a larger scale, and I really look 
at it on a larger scale, landscape scale to make a difference. 
So the laws that are in place many times are one of the key 
issues of being able to implement those treatments on a 
landscape scale size. States and regions are very different. I 
can say Florida does a lot of prescribed fire, and they do. And 
saying Oregon should do the exact same thing is all but 
impossible because of the different geographic areas, the 
different mountainous terrains and all that, but the laws that 
allow you to do it at the right time are critical in each of 
those states, and go back to that partnership issue. It takes 
the efforts of all the agencies coming together. I was in 
discussion with California not that long ago on this same issue 
of how do you work to increase your fuel reduction with 
prescribed fire, and what laws do you have to have in place to 
make this effective? And it really takes all those agencies 
involved in a partnership to do this.
    Mr. Walberg. Let me jump on that a little bit. You know 
that culture fire suppression has led to the buildup of 
hazardous fuels to historic levels. If you could snap your 
fingers and change Federal policies, get to us, reduce red tape 
and improve coordination, how long would it take to see 
meaningful reduction in the wildfire risk? And I open this up 
to the others on the panel, too, but, Mr. Karels, I will give 
you first shot on it.
    Mr. Karels. If I could snap my fingers and say we can do 
everything we possibly can right now, we are going to get 
better, but it is going to take years. It is going to take 
years. It is going to take education with the citizens in those 
areas. But the opportunities to reduce that threat are 
significantly there. I want to give you a quick example.
    About 33 years ago I worked on the Black Hills National 
Forest in South Dakota, and we had a very active forest 
management program, and we had an active fire program, and we 
did a fair amount of prescribed burning in that Ponderosa Pond 
ecosystem. I went back there 2 years ago, the first time in 33 
years, 31 years later, and I could not believe the difference 
in that forest in the density and the fuels, and a lot of that 
is active management. It has taken us 31 years to get there in 
that case. If we could snap our finger, maybe we could start 
turning the corner in 5 to 10 years, but that would just be my 
estimate.
    Mr. Bailey. It is a big backlog. It is a big debt to pay 
back in terms of the biomass accumulation across the landscape 
and the smoke that is hidden in that biomass that is going to 
be released, so it is going to be a big effort. I have been 
involved in a big, comprehensive modeling effort that looked at 
even quadrupling the rate of treatment, which I would do if I 
were made king, but it is still going to be years, decades to 
pay back that debt.
    Mr. Walberg. Well, I appreciate that, and I know my time is 
expired, but those are resources we sometimes forget about, and 
hurricanes and all that go on are a tragic loss, but I think of 
all that went on out west this summer as well that we didn't 
hear all that much about, but it was impacting our country, its 
citizens' enjoyment of those resources, et cetera, for an awful 
long time. So hopefully we can get it taken care of. Thank you.
    Mr. Walden. The gentleman yields back the time. The chair 
now recognizes the gentleman from West Virginia, Mr. McKinley, 
for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman, and thank you for 
this particular panel and this hearing, because numbers of us 
have been talking about the effect that deforestation has on a 
climate change, and you have heard some from the other side 
make that comment about climate change, and NPR just made a 
statement the other day that said, again, it is kind of 
axiomatic, but they said that deforestation is a major 
contributor to climate change.
    I think a lot of us would agree Al Gore's book talks about 
25 to 30 percent of the anthropogenic global warming is 
contributed from the deforestation around the world, 25 to 30 
percent. Interestingly enough, putting that in perspective, 
that is five to six times the percent contributed from fossil 
fuels, from coal. So instead of dealing with this deforestation 
and forest fires, Congress has been spending the last 10 years 
fighting coal.
    So I am delighted that we are having this adult 
conversation about our forests, and how we can protect them. We 
know in the Amazon, in 2014 they had 1,900 square miles they 
deforested. The next year they increased 24 percent. They went 
up to 2,300, and this last year they went up another 29 
percent, and there is where that deforestation is taking place 
in one of the major areas after almost 3,000 square miles is 
being deforested.
    But in America, we are still attacking fossil fuels rather 
than addressing this larger issue. And then, I am trying to 
avoid for West Virginia the fires like you are seeing in all 
the photographs here have been about Oregon. And we have the 
Monongahela National Forest in the southeast portion of the 
state that has been considered by some, it has become a nursing 
home for trees, because for whatever has happened over the 
years, the forester division has not been thinning that out.
    And so I am very curious, I know I am not going to hold you 
to the 28 trees per acre up to a thousand, that is just a grab 
number, and that is fine. I don't know what the number should 
be, but I know that the Allegheny National Forest in 
Pennsylvania has dramatically thinned out its crop, but we are 
not doing that in West Virginia. We are allowing it essentially 
to continue to grow older and older and older, and we are not 
thinning that out.
    When the answer to Harper's question was timber management, 
it could reduce forest fires. If that is the case, to protect 
West Virginia's forest, how could I get our national forest to 
thin out the MOG? Or am I going to experience a fire like you 
are having in Oregon?
    Mr. Bailey. It is more complex I think than just asking 
them to thin out the forest. It is to get them to view it 
comprehensively, including, as a fuel and as a fuel bed for 
some potential fire, particularly in an extreme drought year 
like the Gatlinburg area got this past year or, of course, 
something like that, because that forest will burn. It is 
capable of burning, as well. And this is not actually about 
deforestation, at least in the United States. Long ago, we kind 
of turned that corner and said we weren't going to deforest, 
which is a land use change to something else.
    We manage our forests extremely well thanks to our laws 
here, and deforestation in the U.S. is really different. And 
even the wildfires themselves are not deforestation. Even clear 
cutting in the history of the Monongahela, that is not clear 
cutting. All those areas will be forests again. And so it 
doesn't contribute to that part of the message about climate 
change and deforestation. And they the best way to go is 
sustainable management that is resilient to the fires that are 
going to----
    Mr. McKinley. I just want to see that we have some timber 
management in the MOG. I am trying to find ways how to take 
care because otherwise I think we are going to have a real 
problem here in that upcoming future. So I thank you and I 
yield back.
    Mr. Walden. The gentleman's time is expired. The chair now 
recognizes the gentleman from Georgia, Mr. Carter, for 5 
minutes.
    Mr. Carter. Thank you, Mr. Chairman. Mr. Chairman, I want 
to thank you for having this hearing. This is extremely 
important, as you know, and as I want the panelists to know, 
who I also appreciate being here, I represent southeast 
Georgia. I represent the entire coast of Georgia and almost 
half of the Georgia-Florida State line. The West Mims Fire was 
in my district, Mr. Karels, so this is something I am very 
familiar with. Help me to understand, not all forest fires are 
the same, especially in the swamp, because as I understand it, 
and correct me if I am wrong, the peat catches on fire, and it 
is underneath, and when you put water on it you can't 
necessarily put it out because the water table has to rise 
enough to get it out underneath, so it smolders for a longer 
time. Is that right?
    Mr. Karels. Yes. All the way to North Carolina, Florida, 
Georgia, North Carolina, Minnesota, Michigan, you have peat or 
what we call muck fires, pocosin fires, and those are organic 
soils that are burning. And in the swamp in your district, that 
West Mims Fire was the Okefenokee swamp. We have tried for 30 
years to suppress fires, and then we figured out going into the 
swamp is just throwing money away, and both the Federal 
Government and the State government actually figured that out. 
And what we have done is put what is called swamp's edge break 
around that 600,000-acre essentially wilderness, managed by 
U.S. Fish & Wildlife.
    The one thing that I think is a shining star there that can 
be looked at all across the country is we have what is called 
the Great Okefenokee Association of Landowners. That is state 
agencies, Georgia and Florida, that is Federal agencies, Fish & 
Wildlife, U.S. Forest Service. But the key is that is all the 
private timber companies around there as well, and they all are 
in this together fighting fire and dealing with this situation 
that really expands those partnerships, and in most cases, 
works very well. We struggled this year with it, and we are 
coming back and looking at how do we improve on it, but that 
organization is ideal organizations to implement in the west, 
too. Where you bring everybody together and everybody has a 
voice.
    Mr. Carter. Now, you just mentioned something I want to ask 
you about. As I understand it, the West Mims Fire was started 
by lightning. It started in the Okefenokee National Forest, and 
the Federal Government didn't do anything until it started to 
get to the edges where it would impact the private landowners. 
They said they wanted it to burn. Is that the policy?
    Mr. Karels. It isn't always that they want it to burn, but 
it is good for the swamp to burn, but backing, and that is the 
U.S. Fish & Wildlife Service. Backing them is that we have, 
since the 1980s, tried to go in and put those fires out in the 
swamp. You can't get people and equipment in there, so you 
mostly are dropping it with expansive air operations, and you 
can't put the fire out in that peat with that. So essentially 
when those fires start out there, we prepare on the outside 
almost like a prescribed burn. We start to build our lines and 
begin the suppression effort around the swamp, rather than go 
in and try to fight it, knowing that we can't put it out in 
that swamp.
    Mr. Carter. All right. Two things real quickly. First of 
all, you said earlier that the states have the plans for 
preventative burning and everything, and they are approved by 
the EPA. What about in the national forests like the 
Okefenokee, is that still done by the State of Georgia, or is 
that done by EPA itself or who?
    Mr. Karels. Well, each State is different, but, for 
example, in Florida because we implement the Clean Air Act for 
our Department of Environmental Protection with EPA, the 
National Forest and all the Federal agencies come to us for an 
authorization to burn. So we oversee that program even for the 
Federal agencies as well, and that is a little bit different in 
each State. Georgia does the same thing. So the Fish & Wildlife 
if they have got to get a prescribed burn, they go to the State 
of Georgia.
    Mr. Carter. Did they ever do a prescribed burn in the 
Okefenokee?
    Mr. Karels. They do on the edges in the uplands on the 
edges.
    Mr. Carter. But it is such an enormous area.
    Mr. Karels. Again, most of the Okefenokee is in Georgia, so 
I don't watch it on a day-to-day basis, but what they try to be 
careful of is they don't put it into areas where they know that 
it may, with weather changes, continue to burn until it becomes 
a catastrophic fire.
    Mr. Carter. Well, Georgia is the number one forestry state 
in the Nation. I mean, this is extremely important to our 
state, especially to my district. I don't know if this will 
make you feel any better, and it probably won't, but this is 
not an uncommon problem that we are dealing with in that 
getting funding for preventative measures, almost across the 
board, is difficult a lot of times. I am a healthcare expert, 
and it is difficult to convince Congress sometimes if we will 
just put money toward this, it will save us so much down the 
line, and the same thing with the preventative burning and all 
the things we can do in forestry. In all fairness to Members of 
Congress, we are just trying to put out fires, so to speak, 
with our budgets.
    Mr. Walden. OK. Time is expired.
    Mr. Carter. I just wanted to make sure I got that in, Mr. 
Chairman, and I yield.
    Mr. Walden. The gentleman's time is expired. So we heard 
from the next gentleman early in the hearing, and he has been 
here the whole time. Congressman Kurt Schrader was very excited 
to be able to attend and participate in this hearing because of 
the challenges that the State of Oregon has. I appreciate him 
being here the whole time, and now I yield to him for 5 
minutes.
    Mr. Schrader. I appreciate it very much, Mr. Chairman, and 
this is a really important hearing, and I appreciate all the 
witnesses making the trek out here, and I love my fellow 
Congressman from Georgia, and I would agree that Georgia does a 
heck of a lot of timber, almost as much as the great State of 
Oregon. And we would like to do more; Georgia has a little 
friendlier environment, which I would like to get to on our 
side of the continental divide.
    Just for the record, the photo I put up, that is 48,000 
acres, folks. That is 48,000 acres. And it is only 46 percent 
contained, and it is supposed to burn until Christmas. It will 
continue to burn until Christmas. The train is so steep, it is 
tough to put out, if you will. So this is an ongoing problem 
that started on Labor Day, and it will burn for basically 3, 4 
months here.
    So this is a real big issue, and I am glad the panel is 
here and we are attending to it. I would like to reemphasize 
the fact that forest mortality is an issue, too. The wildfires 
are a big deal, and for short periods of time, they put out 
horrible emissions. The chairman himself had a jar full of that 
ash that fell over the biggest city in the State of Oregon 
called Portland, Oregon, and that brought it home to a lot of 
my Portlandia folks that this is real. This is real, and it is 
right next door. That fire was next to Greg's home. It is just 
a few miles away from Portland at the same time.
    Dr. Bailey, prescribed fire, glad to hear that seems to be 
unanimous treatment that we should be employing, perhaps more 
of. In some areas it is easier than others. In some areas the 
overgrowth is pretty thick, and I assume some thinning would 
have to be done before we could get to prescribed fires. Is 
that accurate?
    Mr. Bailey. Yes. And I think, in fairness to Mr. Marshall, 
that is going to be primarily Federal lands, where it is longer 
rotations, uneven age management, broad management objectives. 
Some mechanical thinning, partial harvesting, followed by 
prescribed firing is the way I see the solution, and I think 
the research supports that.
    On private land, really, the opportunity to treat these 
fuels is at the end of the rotation and before you start 
another one. And so, for them, we are talking about very 
effective site preparation burning.
    Mr. Schrader. OK.
    Mr. Bailey. But that site prep burning has gone away for 
many companies in many parts of the Oregon landscape because of 
the air quality management rules.
    Mr. Schrader. Right, that seem to be backwards, as we heard 
here today.
    Mr. Marshall, I would like to have you comment a little bit 
about the culture of the Forest Service. Apparently, there is 
great variation. I know the categorical exclusions we put in 
the farm bill were categorically denied by a good friend of 
mine in the great State of Washington and has seen little use 
in that state as a result. I know our own state forester is not 
a fan of categorical exclusions to treat some of the salvage 
issues and some of the real problems we have in our state.
    And I guess I am worried about the culture of the Forest 
Service itself. Have you seen any change, in your experience, 
sir?
    Mr. Marshall. The culture encompasses a wide spectrum of 
philosophy. We do see, within the same region, Region 6, the 
most familiar that I am with----
    Mr. Schrader. Sure.
    Mr. Marshall [continuing]. We see areas where they are very 
aggressive, very proactive, very engaged with The Nature 
Conservancy and others, and moving forward with good projects, 
good outcomes, good outputs, for the industries in those areas. 
We do see other areas where it diminishes rapidly.
    And it is a tough culture to change, in my opinion. You see 
those cultures, and you want support to move them forward. And 
we are, through collaborative efforts--I am on the Olympic 
Peninsula Collaborative myself--trying to make those 
opportunities and educational process to change the culture.
    But it is difficult. I am seeing personally, it is easier 
to change the culture of maybe some of the opponents than it is 
maybe with some of the agencies. We need leadership. We need 
the people in this room to direct those leaderships to get 
those cultures in line with focusing on good outcomes that all 
four of us here agree on.
    Mr. Schrader. I would agree. I think there is great 
variation. And, hopefully, with the right leadership in the 
various regions, we can get to that. I think that would be 
critical.
    Dr. Topik, constant litigation is the bane of forest 
management in the Pacific Northwest. Without changing that, we 
are doomed to a cycle of rural poverty the likes of which this 
country has never seen before. It is absolutely unconscionable, 
what goes on there. Every single project gets sued by some 
radical environmental organization--thank God, not The Nature 
Conservancy--and it becomes impossible to do the smallest of 
projects out there.
    It would seem to me that there is some middle ground here, 
as you all have talked about, appropriate give-and-take, 
judicial review perhaps on the front end of a forest management 
plan or a landscape portion of a management plan.
    But do you think it is reasonable, after we have gone 
through that battle and come to some accommodation, some 
collaboration hopefully, that it is fair to litigate on every 
single project within that management plan?
    Mr. Topik. Well, I certainly don't favor frivolous 
litigation and lawsuits, by any stretch of the imagination. I 
am nervous about giving special treatment to some areas.
    Oregon now has, what, 38 collaboratives underway in eastern 
Oregon alone? And you are not seeing the litigation on these.
    So I think a little bit of investment would be one heck of 
a lot cheaper than dealing with the lawsuits. So that is 
something I would like to see us invest in.
    Mr. Schrader. Very good.
    Before I yield back, if I may, Mr. Chair, there is 
legislation out there that is talking about maybe using 
arbitration as an alternative to the constant litigation, 
particularly once these large forest plans and landscape 
management plans have been approved.
    We, again, want to make sure that everyone gets a chance to 
collaborate and have their 2 cents at the table, but, 
unfortunately, there are very unreasonable people still out 
there that make it difficult to get to that. And I urge this 
committee and others to be thinking about perhaps an alternate 
way to get to some accommodation at the end of the day.
    And I really appreciate you having this hearing, Mr. 
Chairman and Mr. Ranking Member. Thank you so much.
    Mr. Shimkus. Dr. Topik, go ahead and respond.
    Mr. Topik. Was there time to comment briefly on----
    Mr. Schrader. Yes, sure.
    Mr. Topik. I want to see negotiated settlements where you 
bring parties together and have a judge or an arbiter, whoever, 
come up with new and novel solutions. The legislation that I 
have seen doesn't allow that. It allows either this or that and 
doesn't allow--so I think the concept is sound. I think some of 
the details need fixing.
    Mr. Shimkus. The gentleman's time has expired. Thank you.
    Thank you, panel, for being here.
    Seeing that there are no further members wishing to ask 
questions for this panel, I would like to thank you all for 
being here.
    Before we conclude, I would like to ask for unanimous 
consent to submit the following documents for the record: a 
letter from the Western Governors' Association; the National 
Climate Assessment 2014, chapter 7 on forests; EPA, ``Climate 
Change Indicators in the United States: Wildfires''; Climate 
Central report, ``Western Wildfires: A Fiery Future''; Climate 
Central articles ``Wildfire Season is Scorching the West,'' 
``With Warming, Western Fires May Sicken More People,'' 
``Climate Change Behind Surge in Western Wildfires''; Christian 
Science Monitor; San Diego Tribune, ``Climate Change Expected 
to Fuel Larger Forest Fires--If It Hasn't Already''--you guys 
are on this climate change thing, aren't you?--Union of 
Concerned Scientists, ``Heat Waves and Wildfire Signal Warning 
about Climate Change (and Budget Cuts)"; Yale Environment 360, 
``A Warmer World is Sparking More and Bigger Wildfires.''
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. Again, we appreciate it. We have learned a 
lot. I think I get a college credit now for Wildfires 101 in my 
forestry class. So we would like to again thank you.
    And the hearing is adjourned.
    [Whereupon, at 12:08 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
